<html>
<title> - OVERSIGHT HEARING ON EXPLORING THE SUCCESSES AND CHALLENGES OF THE MAGNUSON-STEVENS ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]















  EXPLORING THE SUCCESSES AND CHALLENGES OF THE MAGNUSON-STEVENS ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, July 19, 2017

                               __________

                           Serial No. 115-19

                               __________

       Printed for the use of the Committee on Natural Resources




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-390 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
          
          
          
          
          
          
          
          
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonz lez-Colon, PR
Greg Gianforte, MT

                 Todd Ungerecht, Acting Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Madeleine Z. Bordallo, GU
Garret Graves, LA                    Gregorio Kilili Camacho Sablan, 
Jody B. Hice, GA                         CNMI
Daniel Webster, FL                   Vacancy
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Mike Johnson, LA
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                                 ------          
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, July 19, 2017.........................     1

Statement of Members:
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Kaelin, Jeff, Government Relations, Lund's Fisheries, Inc., 
      Cape May, New Jersey.......................................    15
        Prepared statement of....................................    17
    Martin, Sean, President, Hawaii Longline Association, 
      Honolulu, Hawaii...........................................    33
        Prepared statement of....................................    34
    Wiley, Nick, Executive Director, Florida Fish and Wildlife 
      Conservation Commission, Tallahassee, Florida..............     7
        Prepared statement of....................................     9
        Questions submitted for the record.......................    14
    Witek, Charles, Recreational Angler and Outdoor Writer, West 
      Babylon, New York..........................................    22
        Prepared statement of....................................    23
        Questions submitted for the record.......................    28

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    55
 
  OVERSIGHT HEARING ON EXPLORING THE SUCCESSES AND CHALLENGES OF THE 
                          MAGNUSON-STEVENS ACT

                              ----------                              


                        Wednesday, July 19, 2017

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              


    The Subcommittee met, pursuant to notice, at 2:36 p.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, LaMalfa, Graves, Hice, 
Webster, Bishop, Gianforte; Huffman, Beyer, and Barragan.

    Also present: Representatives Young and Scott.

    Mr. Lamborn. The Subcommittee on Water, Power and Oceans 
will come to order. The Water, Power and Oceans Subcommittee 
meets today to hear testimony on an oversight hearing entitled, 
``Exploring the Successes and Challenges of the Magnuson-
Stevens Act.''
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chair. I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Subcommittee Clerk by 5:00 p.m. 
today.
    Hearing no objection, so ordered.
    Also, I ask unanimous consent that the gentleman from 
Georgia, Mr. Scott, be allowed to sit with the Subcommittee and 
participate in the hearing.
    Without objection, so ordered.
    We will begin with opening statements, starting with 
myself, for 5 minutes each.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Good afternoon. Today the Subcommittee will be 
diving into--no pun intended--one of the key authorizing Acts 
under our jurisdiction: the Magnuson-Stevens Act, named after 
longtime Senators Warren Magnuson and Ted Stevens. However, I 
would argue that there should be a third name in the title of 
this Act--our good friend and Chairman Emeritus of the House 
Natural Resources Committee, Don Young of Alaska.
    [Applause.]
    Mr. Lamborn. Congressman Young has been a longtime leader 
of Federal fisheries management issues, and we greatly benefit 
from having his expertise on these issues here in this 
Committee.
    Our public lands and waters should be open to the public. 
Unfortunately, in recent years, access has been eroded by a 
past administration that ignored state and local laws, input, 
and science. As we will hear from our witnesses today, these 
decisions have had real impacts on local economies, cultures, 
and traditions.
    Time and again, this Committee has heard from many 
commercial and recreational fishermen and the businesses that 
depend on them about the need for more transparent science and 
flexibility for regional fishery managers. Congress can and 
should do something about this.
    Last Congress, the House passed Congressman Young's bill to 
reauthorize the Magnuson-Stevens Act--the law that governs 
Federal fisheries management. This bill was endorsed by 
commercial fishing groups, recreational angler and sportsmen's 
groups, and the shoreside businesses that they support. While 
this bill ultimately did not get signed into law, Mr. Young has 
revamped his efforts this Congress with his introduction of 
H.R. 200.
    This bill makes key reforms to reflect scientific 
advancements and regional needs. It specifically provides 
flexibility to the Regional Fishery Management Councils who are 
charged with managing our Federal fisheries stocks. It requires 
the Federal Government to incorporate state and local data when 
it comes to making fish population assessments and provides for 
greater transparency to make sure management decisions are made 
in an open manner. It is my hope that, with this bill, we will 
begin to bring this law into the 21st century. All fishermen 
deserve the right to fish, and that is what this bill helps 
give them.
    I may not live in a coastal community, however, like many 
of my colleagues who are here today, I have constituents that 
want fresh, sustainable, U.S.-caught seafood on their dinner 
plates. Those same constituents may want to go on vacation--for 
instance, to the Vice Chairman's Sunshine State--and take a 
deep-sea fishing trip. Our constituents should not have to 
choose between the two. We can do both.
    As we will hear today from our panel of witnesses, we can 
maintain sustainability while also increasing access to our 
waters for all. We can strike a balance, and it is incumbent on 
us to do so. The valuable input given in today's hearing will 
help guide the Committee as we work with our colleagues to make 
key reforms to this law.
    I want to thank our panel of witnesses for being with us 
here today, and I look forward to hearing from you all on how 
we can help bring Federal fisheries management into the 21st 
century.

    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Good afternoon. Today, the Subcommittee will be diving into one of 
the key authorizing Acts under our jurisdiction: the Magnuson-Stevens 
Act, named after longtime Senators Warren Magnuson and Ted Stevens. 
However, I would argue that there should be a third name in the title 
of this Act: our good friend and Chairman Emeritus of the House Natural 
Resources Committee, Don Young. Congressman Young has been a longtime 
leader of Federal fisheries management issues and we greatly benefit 
from having his expertise on these issues here in the Committee.
    Our public lands and waters should be open to the public. 
Unfortunately, in recent years, access has been eroded by a past 
administration that ignored state and local laws, input and science. As 
we will hear from our witnesses today, those decisions have had real 
impacts on local economies, cultures and traditions. Time and again, 
this Committee has heard from many commercial and recreational 
fishermen and the businesses that depend on them about the need for 
more transparent science and flexibility for regional fishery managers. 
Congress can and should do something about this.
    Last Congress, the House passed Congressman Young's bill to 
reauthorize the Magnuson-Stevens Act--the law that governs Federal 
fisheries management. This bill was endorsed by commercial fishing 
groups, recreational angler and sportsmen's groups and the shoreside 
businesses that they support. While this bill ultimately did not get 
signed into law, Mr. Young has revamped his efforts this Congress with 
the introduction of H.R. 200.
    This bill makes key reforms to reflect scientific advancements and 
regional needs. It specifically provides flexibility to the Regional 
Fishery Management Councils who are charged with managing our Federal 
fisheries stocks; it requires the Federal Government to incorporate 
state and local data when it comes to making fish population 
assessments and provides for greater transparency to make sure 
management decisions are made in an open manner. It is my hope that--
with this bill--we will begin to bring this law into the 21st century. 
All fishermen deserve the right to fish and that's what this bill helps 
give them.
    I may not live in a coastal community, however--like many of my 
colleagues here today--I have constituents that want fresh, 
sustainable, U.S.-caught seafood on their dinner plates. Those same 
constituents may want to go on vacation to the Vice Chairman's 
``Sunshine State'' and take a deep-sea fishing trip. Our constituents 
should not have to choose. As we will hear today from our panel of 
witnesses, we can maintain sustainability while also increasing access 
to our waters for all.
    We can strike a balance and it is incumbent on us to do so. The 
valuable input given in today's hearing will help guide the Committee 
as we work with our colleagues to make key reforms to this law.
    I want to thank our panel of witnesses for being here with us today 
and I look forward to hearing from you all on how we can help bring 
Federal fisheries management into the 21st century.

                                 ______
                                 

    Mr. Lamborn. I now recognize the Ranking Member, Mr. 
Huffman of California, for 5 minutes for his statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman. I do appreciate that 
the Subcommittee is holding an oversight hearing on the 
Magnuson-Stevens Act. Last Congress, we did not have this kind 
of opportunity for input, and unfortunately, a partisan and 
contentious bill was rushed through Committee with no input 
from our side of the aisle. So, I hope that this time we can 
actually work together on what has traditionally been a very 
bipartisan issue: fisheries management. And if we do that, I 
think we can make real progress for our Nation's fishermen and 
coastal communities.
    Congress, of course, passed the original Magnuson-Stevens 
Act in 1976, and subsequent amendments in 1996 and 2006. And 
the context of that has always been very bipartisan in both 
chambers. It involved Republicans working with Democrats to 
enact significant reforms. It has been just over 10 years since 
the last of these, the 2006 reforms. As we take stock of those, 
I think we have to conclude that the law is working.
    In 2006, 13 percent of stocks were subject to overfishing, 
23 percent were overfished. The most recent NOAA report from 
2016 showed that only 9 percent of stocks are subject to 
overfishing, and only 16 percent are overfished.
    That is good progress. These numbers have remained at these 
all-time lows over the past several years, and every year 
during this period, the number of rebuilt stocks has increased. 
We now have 41 rebuilt stocks, so Magnuson has been successful.
    Healthy fisheries, of course, also means a healthy fishing 
industry. In 2015, that meant 1.62 million jobs and over $200 
billion in sales from commercial and recreational fishing, 
supporting coastal communities across this country, including 
my own district on the north coast of California.
    Because this law ensures that fisheries are managed based 
on science, rather than short-term economic or political 
motivations, these benefits can continue growing as long as we 
maintain responsible and sustainable management measures.
    Unfortunately, some believe--or argue, at least--that 
Magnuson is too restrictive, and they want to weaken or 
circumvent this important law. I am fully aware that it is not 
always easy or popular to implement fishing restrictions. 
Management tools like catch limits and rebuilding plans, they 
are essential to ensure a future for our fisheries and our 
fishing industry, but in the moment they can be very unpopular, 
especially in certain localities.
    In my district, fishermen went through a period of 
sacrifice. They had several tough years while groundfish stocks 
were depleted. But Magnuson provided the scientific and 
regulatory framework to bring them back. We have now rebuilt 
half of our groundfish species, and more of them are on the way 
to being rebuilt. These accomplishments certainly did not come 
easy, but our fishermen, after making sacrifices, are now 
benefiting from the long-term health of our fisheries, and the 
communities that depend on these fisheries are benefiting, as 
well.
    Fishing restrictions, of course, don't just happen. They 
are only put in place because they are absolutely necessary. If 
there are not enough fish to support strong harvests both now 
and in the future, then we have to make the tough decision to 
cut back.
    As we know, Magnuson can be improved, and it is my hope 
that Democrats and Republicans on this Committee can actually 
work together and stay focused on fisheries instead of using 
reauthorization of this important law as a vehicle for 
partisan, anti-conservation agendas to support special interest 
groups.
    Unfortunately, in recent years our friends across the aisle 
have not done that. They have chosen, in fact, to pass highly 
partisan bills that did not benefit from bipartisan 
collaboration, and the result sort of speaks for itself. Those 
bills went over to the Senate and they were dismissed out of 
hand.
    So, it ought to be crystal clear that the right thing to 
do, in terms of good public policy, and also the durability and 
success of whatever bill passes out of this House can only come 
from working together. I know there are good ideas on both 
sides of the aisle to achieve our conservation goals, to 
modernize data and monitoring, to make fisheries more 
accessible and profitable.
    I also know that it is a legacy of overfishing, and not 
recent restrictions or other conservation laws, that has caused 
protracted hardship in some fishing communities. These 
communities are never going to get real relief until target 
stocks rebuild, and that can only happen with a strong Magnuson 
Act based on sound science and accountability.
    So again, thank you, Mr. Chairman, for this hearing, and I 
look forward to hearing from the witnesses.
    Welcome, we are glad you are here. And hopefully I look 
forward to working together to reauthorize a strong Magnuson 
Act.

    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Thank you, Mr. Chairman.
    I appreciate that this Subcommittee is holding an oversight hearing 
on the Magnuson-Stevens Fishery Conservation and Management Act. Last 
Congress, we didn't have this important opportunity, and unfortunately 
a partisan and contentious bill was rushed through Committee with no 
input from our side of the dais. So, I hope that this time we can work 
together on the traditionally bipartisan issue of fisheries management 
and make real progress for our Nation's fishermen and coastal 
communities.
    Congress passed the original Magnuson-Stevens Act in 1976, and 
subsequent amendments in 1996 and 2006. For context, those amendments 
were passed while Republicans controlled both chambers, and after 
working with Democrats to enact significant reforms. It has been just 
over 10 years since the 2006 reforms were passed, and it is clear that 
the law is working.
    In 2006, 13 percent of stocks were subject to overfishing and 23 
percent were overfished. The most recent NOAA report from 2016 showed 
that only 9 percent of stocks are subject to overfishing and 16 percent 
are overfished. These numbers have remained at these all-time lows over 
the past several years and every year the number of rebuilt stocks 
increases. We now have 41 rebuilt stocks, so I think it's safe to say 
that Magnuson has been successful.
    Healthy fisheries also mean a healthy fishing industry. In 2015, 
1.62 million jobs and $208 billion in sales from commercial and 
recreational fishing supported coastal communities across the country. 
Because the law ensures that fisheries management is based on science 
rather than short-term economic or political motivations, these 
benefits can continue growing as long as we maintain responsible and 
sustainable management measures.
    Unfortunately, some claim that Magnuson is too restrictive and want 
to weaken or circumvent the law. While I'm fully aware that it isn't 
always easy or popular to implement fishing restrictions, management 
tools like annual catch limits and rebuilding plans are essential to 
ensure a future for our fisheries and fishing industry.
    In my district, fishermen went through several tough years while 
groundfish stocks were depleted. But Magnuson provided the scientific 
and regulatory framework to bring them back. We've now rebuilt half of 
our groundfish species and more are on the way. These accomplishments 
certainly didn't come easily. Our fishermen had to make sacrifices, but 
the long-term health of our fisheries and communities depend on making 
these tough conservation decisions, and the support from commercial and 
recreational fishermen has been integral to sustaining the fisheries 
that are critical for West Coast communities.
    The success and sustainability of the fishing industry relies on 
harvesting from healthy and productive fish stocks. Fishing 
restrictions are only put in place because they are absolutely 
necessary--if there aren't enough fish to support strong harvests both 
now and in the future, we need to cut back.
    As we discuss how Magnuson can be improved, it is my hope that 
Democrats and Republicans on the Committee can work together and stay 
focused on fisheries, instead of using reauthorization of this 
important law as a vehicle for a partisan anti-conservation agenda to 
support special interest groups. Unfortunately, Committee Republicans 
have chosen the latter path during each of the last two Congresses, and 
the Senate has dismissed their bills out of hand. It should be crystal 
clear from this experience that in order to craft a bill that can 
become law, we must work together.
    I know that there are good ideas from both sides to achieve 
conservation goals, modernize data and monitoring, and make fisheries 
more accessible and profitable. I also know that it is the legacy of 
overfishing, and not recent restrictions or other conservation laws, 
that has caused protracted hardship in some fishing communities. Those 
communities will never get real relief until target stocks rebuild, and 
that can only happen with a strong Magnuson Act based on sound science 
and accountability.
    We must also accept the reality of climate change, and incorporate 
climate science into fisheries management. Fish stocks are responding 
to changing temperatures and ocean conditions, and these impacts must 
be considered if we hope to achieve and maintain strong and sustainable 
fisheries.
    Earlier this morning, I talked about the importance of science in 
managing endangered species, and again I'd like to highlight the 
importance of science, this time in managing our Nation's fisheries. We 
cannot let political or short-sighted economic priorities set the 
agenda for managing any of our Nation's resources, especially the 
fisheries that support coastal economies. Magnuson has been a great 
success for our fisheries, recreational and commercial fishing 
industries, and people across the country who enjoy eating sustainable 
seafood. I urge the Committee to move forward on Magnuson 
reauthorization in a collaborative manner this Congress and I hope that 
we can make progress on a bipartisan effort to strengthen fisheries 
management.
    With that I'd like to thank the witnesses for being here today and 
I look forward to hearing from you. I yield back.

                                 ______
                                 

    Mr. Lamborn. I now recognize the Vice Chair of the 
Subcommittee, Mr. Webster of Florida, for any statement he may 
wish to make.
    Mr. Webster. Thank you, Mr. Chair. I am going to yield my 
time to the gentleman from Alaska, Mr. Young.
    Mr. Lamborn. The gentleman is recognized.
    Mr. Young. Thank you, Mr. Chairman, for having this 
hearing. And I will say that the bill started in this Committee 
with another Democrat, Mr. Gerry Studds from Massachusetts. We 
wrote the bill through the input from fishermen, because the 
fish were being over-harvested by foreign fleets. We passed the 
bill and it went over to the Senate side. And, as people will 
recognize, it was named after two Senators from the West Coast. 
All I can say, this action, has been one of the better, 
brighter spots of this Committee.
    I will say that the bill has worked beautifully. There have 
to be some adjustments made, but I have to say to my good 
friend from California, there is a two-way street here. You 
don't want to catch any fish, that is really the whole problem, 
and that is because you want to catch them yourself. And we 
need the industry as it is to be very viable. We have done 
that. I believe my bill last year, with the flexibility, which 
was requested by people involved in the fisheries, including 
the scientists--and I was accused of destroying the Magnuson 
Act, which I gave birth to.
    I think some of the objections to it were not really well 
thought out, and what they were trying to do--certain interest 
groups outside the fishery would have stopped the whole 
activity of commercial and recreational fisheries.
    So, Mr. Chairman, this has been an outstanding piece of 
successful legislation. I personally do believe in a Council 
system. Some of the Councils have not functioned well. In my 
case, the North Pacific Council has done quite well. We are 
heavily abundant in fish, and there is not as much conflict as 
there is in other areas across this Nation.
    So, Mr. Chairman, I want to thank Mr. Webster for yielding 
me his time, and suggest that this is an enlightening hearing. 
Hopefully, we will have the ability to make--if we change some 
of the decisions, I would like to see it reauthorized. We did 
pass it out of the House, even though the threat that Mr. Obama 
was going to veto. What for, I don't know. I won't ask that 
question again.
    But this is a good piece of legislation, as proposed, and 
as the hearings go. But this hearing is important to hear from 
all sides, again, and hopefully move a bill that will 
accomplish the job of sustainable yield of fisheries. I yield 
back.
    Mr. Lamborn. I will just recognize that we have our Full 
Committee Chairman, Representative Bishop of Utah, with us 
today also.
    If the witnesses want to come forward to the chairs, our 
first witness is Mr. Nick Wiley, Executive Director of the 
Florida Fish and Wildlife Conservation Commission from 
Tallahassee, Florida; our second witness is Mr. Jeff Kaelin, 
who works in government relations for Lund's Fisheries, Inc., 
from Cape May, New Jersey; our third witness is Mr. Charles 
Witek--I hope I said that correctly--a recreational angler and 
outdoor writer from West Babylon, New York; and our final 
witness is Mr. Sean Martin, President of the Hawaii Longline 
Association, from Honolulu, Hawaii.
    Each witness' written testimony will appear in full in the 
hearing record, so I ask that witnesses keep their oral 
statements to 5 minutes, as outlined in our invitation letter 
to you, and under Committee Rule 4(a).
    I will explain how the timing lights work. When you are 
recognized, press the talk button to activate your microphone. 
Once you begin your testimony, the Clerk will start the timer 
and a green light will appear. After 4 minutes, a yellow light 
will appear. At that time, you should begin to conclude your 
statement. At 5 minutes, a red light comes on. I will ask that 
you complete your sentence at that time.
    Mr. Wiley, if you could present your testimony, we will 
start with you. Thank you.

 STATEMENT OF NICK WILEY, EXECUTIVE DIRECTOR, FLORIDA FISH AND 
     WILDLIFE CONSERVATION COMMISSION, TALLAHASSEE, FLORIDA

    Mr. Wiley. Chairman Lamborn, Vice Chair Webster, Ranking 
Member Huffman, Chairman Bishop, and other Members, thank you 
for the opportunity to testify today. I recognize the purpose 
of this hearing is to explore successes and challenges.
    The Magnuson-Stevens Act has delivered some successes. But 
today, I need to focus on the challenges. Candidly, in Florida 
and across the Southeast we are facing a number of highly 
controversial and divisive fishery management issues that we 
cannot fully address because we are boxed in by the current 
framework of this Act.
    Today, the Act simply is not providing for the best 
utilization of our Nation's public trust fishery, by our 
experience. There are several key issues that need to be 
addressed, including overly restrictive catch limits, flawed 
monitoring tools, and inflexible fishery rebuilding plans.
    Strict annual catch limits are a serious issue for us. They 
work well for commercial fisheries, where harvest and catch 
rates can be monitored closely and effectively, almost real-
time. They do not work well for recreational fisheries, because 
we simply cannot monitor recreational fisheries this closely.
    The Marine Recreational Information Program, known as MRIP, 
is a primary tool for monitoring recreational fishing, but it 
will never be sufficient to support management decisions under 
strict annual catch limits. Forcing use of MRIP in this manner 
means we use untimely and unreliable harvest estimates, which 
translate into short-notice closures, reduced seasons, and 
reduced catch limits. All of these are actions that frustrate 
recreational anglers.
    These issues can be illustrated with red snapper management 
in the Gulf of Mexico. Our Gulf red snapper stock is rebuilding 
well ahead of schedule, but the Federal system is penalizing 
recreational anglers for success. We are required to manage 
catch limits by pounds caught, which is a commercial approach. 
As red snapper get more abundant and bigger, the recreational 
harvest reaches catch limits more quickly, and Federal seasons 
get shorter--down to just 3 days this year.
    Thankfully, several of you and your colleagues recognized 
the seriousness of this dilemma and helped us work with the 
Department of Commerce to allow a 39-day season this year. To 
those of you who led the way on this effort, particularly 
Majority Whip Steve Scalise and Commerce Secretary Wilbur Ross, 
I offer our gratitude for your leadership and support.
    Current requirements for rebuilding stocks under Magnuson-
Stevens are unnecessarily inflexible. The law requires 
rebuilding plans to end overfishing within 2 years, and attempt 
to rebuild stocks within 10 years. These requirements result in 
overly prescriptive constraints and inflexibility that hinders 
reasonable management of fish stocks. If we had flexibility for 
longer rebuilding time frames, stocks could be rebuilt while 
still allowing more reasonable access for fishing.
    Inflexible rebuilding time frames also pressure fishery 
managers to use inaccurate or even fallible scientific 
information for management decisions because it is the best 
available science. The red snapper fishery in the Atlantic is a 
good example of this issue. Although science tells us our 
Atlantic red snapper stocks are increasing dramatically, the 
fishery has been open for only 11 total days of recreational 
fishing over the past 8 years.
    But with no fishing season, we get no harvest data and our 
best-available science and stock assessments no longer reflect 
the reality anglers are seeing on the water. We get no season 
again this year: a bona fide Catch-22, because we cannot 
scientifically support a harvest without actually having a 
harvest.
    But we are encouraged by legislation that has recently been 
introduced here in the House, specifically H.R. 200 and H.R. 
2023. These bills would substantially improve fisheries 
management and help bring better balance for fisheries 
conservation and access. My written testimony specifies much of 
what we like about these pieces of legislation.
    So, the take-home message is that the current Federal 
management system with regard to recreational fishing, in our 
view, forces a square peg in a round hole, causing high levels 
of frustration and loss of confidence in all of us. I know we 
can do better.
    In fact, we only need to look to our near-shore fisheries 
in Florida and other southeastern states to see how we can do 
better using well-established management and monitoring tools 
designed for recreational fishing. We have a proven track 
record in the near-shore fisheries, such as red drum, sea 
trout, and snook. We absolutely can manage for robust and 
abundant salt water fisheries, working in cooperation with 
recreational anglers.
    Please don't fall for the argument that we want to weaken 
Magnuson-Stevens. That notion is an affront to the conservation 
legacy established by recreational anglers and state fishery 
agencies.
    Much to the contrary, our suggestions are intended to 
strengthen the Act, strengthen partnerships with state 
fisheries agencies, restore balance between access and 
conservation, and restore credibility and trust in the system.
    Mr. Chairman, thank you again for the opportunity to 
testify.

    [The prepared statement of Mr. Wiley follows:]
Prepared Statement of Nick Wiley, Executive Director, Florida Fish and 
                 Wildlife Conservation Commission (FWC)
    Chairman Lamborn, Vice Chair Webster, and Ranking Member Huffman, 
thank you for the opportunity to testify at this important hearing 
``Exploring the Successes and Challenges of the Magnuson-Stevens Act.''
    My name is Nick Wiley, and I serve as Executive Director for the 
Florida Fish and Wildlife Conversation Commission (FWC). FWC is the 
state agency responsible for managing fish and wildlife resources in 
the state of Florida. I also serve as president of the Association of 
Fish and Wildlife Agencies (AFWA), which is the professional 
association that represents state fish and wildlife agencies 
nationwide. My remarks today, however, are offered on behalf of my 
agency in Florida.
    Recreational fishing generates an economic impact of $8 billion to 
Florida's economy and supports more than 115,000 jobs. Florida leads 
the Nation in the number of saltwater recreational anglers. We have 
more world record fish catches than any other state or country. Our 
state is home to a thriving fishing tackle and marine manufacturing 
industry. Florida leads the Nation in the number of registered boats, 
with nearly 50 percent of boat owners using their boats for fishing. 
Recreational boating contributes $10 billion to our economy and 
supports more than 80,000 jobs.
    Florida has one of the top-producing commercial fisheries in the 
country, which is second in the Nation in terms of sales, income, and 
value-added impacts, and is third in the Nation for the number of jobs 
supported by commercial fishing. The seafood industry in Florida 
supports more than 90,000 jobs. Sales of Florida seafood have an 
economic impact of more than $1 billion.
    As the state agency responsible for managing saltwater resources 
for their long-term well-being and the benefit of people, FWC is 
uniquely positioned to comment on the Magnuson-Stevens Act.
                               background
    As you are aware, Magnuson-Stevens was enacted in 1976 and amended 
in 1996 and, most recently, in 2007. The original law creating the 
Federal fisheries management structure has largely remained in place 
for more than 40 years. Eight regional management councils are 
responsible for developing and implementing fishery management plans. 
Council members are nominated by governors and are appointed by the 
Secretary of Commerce. The regional management councils monitor 
fisheries and make recommendations for fishery management plans that 
are ultimately approved by the Secretary of Commerce with guidance from 
the National Marine Fisheries Service (NOAA Fisheries). These fishery 
management plans dictate access to, types of, and number of fish that 
are available to recreational anglers, the charter fleet, and the 
commercial industry.
    Fishery management plans have a huge impact on the economy at every 
step from sea to table. It is important, therefore, that all parties 
involved in the fisheries management plan development processes have 
access to the right data, use all tools available to interpret these 
data, and be given the flexibility to make necessary management 
decisions.
    I recognize the purpose for this hearing is to explore the 
``successes and challenges'' of the Magnuson-Stevens Act. This Federal 
legislation has provided the framework for a number of successes. Many 
important fish stocks have been rebuilt or are well on the way to 
rebuilding due to the provisions of this Act and its diligent 
implementation. In my agency and my state, however, we always stay 
focused on challenges and are continually seeking ways to solve 
problems and improve. This is particularly true with our efforts to 
sustainably manage marine fishery resources for the benefit of Florida 
families, communities, and the millions of Americans who visit our 
state each year from across the Nation.
    Given this, I am not inclined to look in the rear view mirror to 
celebrate successes or rest on laurels. In fact, I want to be very 
candid in my remarks today. Speaking for my agency and many of our 
stakeholders, we are not pleased with the current framework of 
Magnuson-Stevens and believe there is much room for improvement. We are 
facing a number of highly controversial and divisive fishery management 
challenges that continue to simmer. We cannot fully address these 
challenges in many cases because we are boxed in by the current 
framework of the Magnuson-Stevens Act, and we need your help to find 
solutions.
    Magnuson-Stevens was originally designed to prevent overfishing in 
the commercial fishing industry and implement rebuilding plans when 
fish stocks are overfished. The Act has worked best when applied to the 
commercial sector, but not so well when applied to the recreational 
sector. The 2007 reauthorization of Magnuson-Stevens created numerous 
challenges for the management of marine fisheries resources in the 
southeastern United States. The requirements to manage fisheries under 
strict annual catch limits, the overly prescriptive constraints for 
stock rebuilding plans, and general inflexibility within the current 
version of the law have hindered management of fish stocks in the South 
Atlantic and Gulf of Mexico. This inflexibility has fostered a serious 
erosion of public confidence, trust, and support for this fishery 
management system. FWC believes Magnuson-Stevens, as currently written, 
needs to be modified and improved to better balance today's need for 
access and conservation. Changes to the law are needed to provide 
better utilization of and access to the Nation's public trust resources 
for the American public and the citizens of Florida.
            annual catch limits are not a universal solution
    The requirements for annual catch limits and fishing levels 
required by Magnuson-Stevens are impractical for the South Atlantic and 
Gulf regions, which harbor the largest segment of recreational fishing 
in the Nation. While annual catch limits, or quotas, may work well for 
commercial fisheries in which harvests are closely monitored, they can 
complicate management of recreational fisheries, such as red snapper. 
This is the case because the system that generates recreational harvest 
estimates, the Marine Recreational Information Program (MRIP), is less 
precise than commercial monitoring and does not generate estimates in 
real time. This system was not designed or equipped for tracking 
recreational harvest to the individual pound, but was originally 
intended to provide general trends in recreational harvest and effort. 
Recreational data is often extrapolated unrealistically, especially for 
species not commonly targeted by hook-and-line, such as hogfish, which 
are primarily speared, or for species classified as ``rare events,'' 
such as red snapper, which has had no annual season in the South 
Atlantic region the last few years, and before that, had a very short 
one.
    Even though methodologies to estimate recreational harvest have 
improved since the last Magnuson-Stevens reauthorization, they are 
still insufficient to manage recreational fisheries under strict annual 
catch limits. Yet, bound by the requirements of Magnuson-Stevens, 
Federal fishery managers use the recreational data collection system to 
justify the closing of fisheries, often with minimal advance notice. 
Despite fishery managers' best efforts to constrain recreational 
harvest to the annual catch limit through fishing seasons and 
recreational bag limits, the unpredictable figures produced by the 
system can result in estimated harvest exceeding the annual catch 
limit. The penalties for doing so, including closures, reduced seasons, 
and reduced catch limits, frustrate private recreational anglers and 
prevent the charter industry from developing effective business plans. 
Management of the recreational sector under strict annual catch limits 
generates devastating socioeconomic effects and is highly unreasonable 
due to the insufficiency of the recreational data collection system.
    In the southeastern United States, the annual catch limit 
requirement further complicates fisheries management for stocks that 
have never been assessed or whose assessments are outdated. Accurate 
stock assessments are the linchpin for successful management under 
annual catch limits. Historically, investment in stock assessment 
capabilities in the Southeast has been low in comparison with other 
parts of the country. In 2017, only five assessments of South Atlantic 
or Gulf Council-managed stocks are scheduled to be completed under the 
SEDAR process (three for the South Atlantic and two for the Gulf). 
Given the large number of federally managed fish stocks, as well as the 
high level of participation and the economic revenues generated by 
fisheries in the Southeast, the funding and priorities of NOAA are 
woefully inadequate for this region. Although the annual catch limit is 
a Federal requirement, the state of Florida, through FWC, produces many 
of the stock assessments needed to implement this system. In addition 
to assessments of state-managed species, FWC annually produces one or 
two assessments of federally managed species. Inadequate funding of the 
research and the capacity needed to conduct adequate stock assessments 
will continue to inhibit management under annual catch limits and will 
prevent fisheries from achieving optimal yields.
    So, in summary, with regard to recreational fisheries management, 
particularly in the Southeast, the current monitoring system under 
Magnuson-Stevens is truly a square peg in a round hole causing high 
levels of frustration, particularly among recreational saltwater 
anglers. I do not fault the Federal and state fishery scientists and 
managers who are doing their best to make this system work. We just do 
not have the flexibility to fully address these problems without 
changes to the statutory framework and more strategic funding 
solutions.
    Magnuson-Stevens already acknowledges that it is not appropriate to 
manage all fisheries under annual catch limits, such as in fisheries 
where the species life cycle is less than a year. However, there are 
other fish stock characteristics that pre-empt the utility of annual 
catch limits in the United States. For example Florida's spiny lobster 
is one of the state's most valuable commercial fisheries with a 
dockside value averaging $20 to $24 million annually. Lobsters have a 
unique life cycle with a long larval stage, which means the recruits 
for Florida's fishery are spawned elsewhere in the Caribbean. As a 
result, harvest in Florida has minimal effect on future abundance of 
the stock. Decisions made in foreign Caribbean countries ultimately 
seal the fate of our fishery. Thus, an annual catch limit provides no 
biological benefit for Florida's spiny lobster, and Magnuson-Stevens 
should not require this fishery to be managed under this system.
    A concrete example of how the current management system of annual 
catch limits has failed comes from the Gulf of Mexico recreational red 
snapper fishery. After a long history of overfishing, the Gulf red 
snapper stock is rebuilding ahead of schedule, and annual catch limits 
have increased. The commercial fishery has benefited through individual 
fishing quotas and now has access to the stock year round. In contrast, 
the recreational fishery has faced increasing uncertainty in recent 
years, with Federal fishing seasons being cut shorter and shorter each 
year. The Magnuson-Stevens framework in this regard has created a 
situation where recreational fishing literally is a victim of 
successful stock rebuilding rather than realizing increasing access and 
sharing in successful rebuilding. As a result, the recreational season 
for Gulf red snapper diminished to just 3 days in 2017.
    Thankfully, several of you and your colleagues recognized the 
seriousness of this dilemma with Gulf red snapper and worked with the 
U.S. Department of Commerce and Gulf states to allow a 39-day season in 
Federal waters this year. To those of you who led the way on this 
effort, particularly Majority Whip Steve Scalise, and on behalf of 
recreational anglers and coastal communities across the Gulf of Mexico, 
I want to offer a heartfelt thank you for the relief you provided this 
season. But now we have to look ahead to next season and beyond to 
secure durable solutions for the red snapper situation in the Gulf and 
South Atlantic. We are earnestly and respectfully seeking your 
continued attention and support in this regard over the next few weeks 
and months.
    If alternative fishery management systems can be employed in 
Federal fisheries management, private recreational anglers and charter 
captains would face less uncertainty in fishing seasons while stocks, 
such as Gulf red snapper continue to rebuild. These innovative 
approaches would provide valuable socioeconomic benefit to Florida's 
Gulf coast fishing communities, such as Destin and Panama City, which 
depend on charter trips and vacationing families staying in hotels and 
eating in local restaurants, for much of their economy. But, we cannot 
get there without your help.
             the current system is unnecessarily inflexible
    The management system established under the 2007 Magnuson-Stevens 
reauthorization is extremely inflexible and sometimes contrary to 
common sense. Under the requirements of Magnuson-Stevens, the regional 
management councils develop rebuilding plans for overfished stocks. The 
law requires rebuilding plans to end overfishing within 2 years and 
attempt to rebuild stocks within 10 years, if biologically possible. 
These arbitrary deadlines can be unnecessarily disruptive to fishing 
communities and local economies. In some cases, if longer time frames 
were allowed, fisheries could be rebuilt or overfishing could be 
eliminated without devastating the economic livelihood of fishermen and 
negatively effecting fishing communities. We are simply suggesting a 
more balanced and measured approach that would benefit all sectors of 
the fishery while maintaining a path to full rebuilding of fishery 
stocks. This approach will achieve fishery conservation goals while 
restoring public confidence in and support for our collaborative 
fishery management system.
    Inflexibility also impacts how data is used in fisheries 
management. Magnuson-Stevens requires fishery management plans and 
regulations be ``based upon the best scientific information 
available.'' This is sound in theory. However, due to inadequate 
funding for fisheries research in the southeastern United States, the 
shortcomings of the recreational data collection system, and stock 
assessment models that depend upon harvest data, the ``best scientific 
information available'' is not always best. The regional management 
councils and their scientific advisors have recognized this. Yet, they 
are constrained to using fallible data when making management decisions 
because it is the best available.
    Perhaps one of the best examples of the requirement to use the 
``best scientific information available'' confounding sound management 
in the Southeast occurs in the Atlantic red snapper fishery. The 
Atlantic red snapper stock was first declared overfished in 2008. In 
response, the South Atlantic Fishery Management Council (SAFMC) took 
drastic measures to end overfishing and implement a rebuilding plan. 
This included prohibiting all harvest of red snapper in 2010, 2011, 
2014, 2015, and 2016. In the last 8 years, NOAA Fisheries has only 
allowed 17 days of recreational harvest. This creates a significant 
problem for assessing the Atlantic red snapper stock.
    The 2016 stock assessment determined Atlantic red snapper is still 
overfished and undergoing overfishing. However, the magnitude of 
overfishing is unknown. This is because the model used to assess the 
red snapper stock relies on data from fishing to inform the assessment. 
NOAA Fisheries has determined that without a fishery, the model cannot 
produce results to inform management or to set annual catch limits. 
Although the 2016 stock assessment found the stock abundance had 
dramatically increased, management of the fishery must still be guided 
by the ``best scientific information available,'' which comes from the 
2010 stock assessment. Consequently, there will be no fishery again 
this year from which to collect data to inform the next stock 
assessment. How can we defend this situation to the hardworking people 
in the recreational fishing industry, the charter boats, and commercial 
fishermen whose livelihoods depend on sustainable access to this 
fishery?
    The 2010 Atlantic red snapper stock assessment established annual 
catch limits that restrict the amount of both harvest and dead 
discards. Dead discards result when fishermen incidentally catch red 
snapper and release them but the fish does not survive. As the fishery 
has been closed, only dead discards have been counted against the 
annual catch limit. The system that generates recreational data, 
including dead discard, estimates has been deemed the ``best scientific 
information available.'' As stated earlier, data produced by this 
system is imprecise and is often extrapolated unrealistically, 
especially for closed fisheries. The estimated number of dead discards 
has increased exponentially in recent years, and for the past 3 years, 
it exceeded the annual catch limit. NOAA Fisheries acknowledges that 
estimates of dead discards are flawed. Clearly, the system is broken if 
the estimated number of fish that die because of bureaucratic 
regulations exceeds the annual catch limit. These same fish could have 
been harvested and enjoyed by America's anglers and seafood consumers. 
Changes are needed to break this cycle, including the flexibility in 
determining when and how scientific data should be used.
                        there is a path forward
    FWC is encouraged by legislation recently introduced in the U.S. 
House of Representatives that would amend Magnuson-Stevens to provide 
realistic solutions for continued conservation and management of marine 
fisheries, while also providing reasonable public access to these 
resources. H.R. 200 introduced by Congressman Don Young (R-AK), the 
Strengthening Fishing Communities and Increasing Flexibility in 
Fisheries Management Act, would substantially improve fisheries 
management and help bring better balance for fisheries conservation and 
access. Specifically, those improvements are:

    <bullet> Basing fish stock rebuilding time frames on biology rather 
            than on an arbitrary, one-size-fits-all deadline;

    <bullet> Providing flexibility in ceasing a rebuilding plan when it 
            is determined to no longer be necessary;

    <bullet> Giving regional management councils the flexibility to use 
            ecosystem changes and economic needs of fishing communities 
            when setting annual catch limits;

    <bullet> Exempting certain stocks where annual catch limits may not 
            be appropriate, such as spiny lobster;

    <bullet> Providing flexibility in the management of recreational 
            fisheries, such as fishing mortality rate targets and 
            alternative rebuilding strategies;

    <bullet> Repealing Section 407(d) because this section is outdated 
            and should be removed given it addresses creation of an 
            Individual Fishing Quota (IFQ) program and catch limits for 
            red snapper. Gulf red snapper has an IFQ program, and catch 
            limits are now addressed elsewhere in the Magnuson-Stevens 
            Act. Removal of this section also would allow the Council 
            to consider needed modifications to the red snapper IFQ 
            program without always needing a referendum.

    <bullet> Increasing public involvement and transparency when 
            scientific data are developed;

    <bullet> Prioritizing improvements to data collection and stock 
            assessments, particularly in the Southeast;

    <bullet> Forming a Federal-State partnership program to improve 
            data collection for recreational anglers;

    <bullet> Adding a definition for ``depleted'' and requesting NOAA 
            to indicate in an annual report on why a species is 
            depleted, which might not be related to fishing;

    <bullet> Requiring a referendum for South Atlantic Council LAPP 
            programs.

    While acknowledging enactment of this bill would deliver major 
improvements, FWC recommends additions or changes as follows to more 
completely address significant fishery management issues:

    <bullet> Reef Fish Stock Assessments in the Gulf: The Gulf States 
            Marine Fisheries Commission does not have the personnel 
            with institutional knowledge and appropriate science and 
            marine fisheries management background to perform the due 
            diligence and provide an accurate stock assessment. FWC 
            suggests, therefore, changes that would identify a more 
            appropriate organization to perform reef fish stock 
            assessments and stands ready to help identify such an 
            organization.

    <bullet> Cost recovery money from Limited Access Privilege Programs 
            (LAPPs): A complete accounting of the disbursements, 
            including how much is used for program administration, law 
            enforcement, etc., would provide a high level of 
            transparency for the public to understand how this program 
            operates.

    <bullet> Marine Recreational Information Program Reporting: FWC 
            suggests changes in the MRIP report that transparently 
            acknowledge the limitations of MRIP for the current 
            management system.

    <bullet> Referendum Participation: FWC suggests limiting catch 
            share voting to those who have landings from the particular 
            species for which the catch share is being implemented.

    In addition to H.R. 200, H.R. 2023, the Modernizing Recreational 
Fisheries Management Act, which was introduced by Congressmen Graves 
(R-LA), Green (D-TX), Webster (R-FL), and Wittman (R-VA) contains many 
important reforms that would be bring stability, flexibility, and 
security to recreational fishing.

    Some of those key reforms are:

    <bullet> Charging National Academy of Sciences (NAS) with 
            conducting a study on allocation for South Atlantic and 
            Gulf of Mexico mixed-use fisheries;

    <bullet> Repealing Section 407(d) of Magnuson and giving Councils 
            the authority to use alternative fishery management 
            measures for recreational fisheries;

    <bullet> Instituting a moratorium on LAPP for mixed-use fisheries 
            in the Gulf of Mexico and South Atlantic. FWC suggests 
            including a sunset date, such as 5 years, for the 
            moratorium;

    <bullet> Basing rebuilding time frames on biology, stock status, 
            and the needs of fishing communities;
    <bullet> Giving Councils flexibility to consider changes in 
            ecosystem and economic needs of communities when setting 
            ACLs and removing ACL requirements for certain criteria. 
            FWC suggests allowing the Secretary of Commerce, when 
            determining an ACL, to consider that overfishing is not 
            occurring or inadequate data collection system is being 
            used.

    <bullet> Including affected states in review of proposed exempted 
            fishing permits to ensure the proposed activity is 
            consistent with management and conservation objectives, and 
            that social and economic impacts are minimal;

    <bullet> Facilitating greater incorporation of data, analysis, 
            stock assessments, and surveys from state agencies and non-
            governmental sources and following through with 
            recommendations of the NAS for evaluation of whether MRIP 
            use is compatible with current management;

    <bullet> Creating best practices for state-administered 
            recreational data collection programs and providing funding 
            for improvement of state data collection programs. Within 
            90 days of enactment, Secretary of Commerce must enter into 
            agreement with NAS to review if MRIP is compatible with the 
            needs of in-season management of annual catch limits, 
            including whether in-season management of annual catch 
            limits is appropriate for all recreational fisheries.

    This is an exciting time to be involved in fishery management. We 
appreciate these opportunities to address serious problems and create a 
better fishery management system for all parties involved including the 
hardworking people in the fishing industry and the millions of American 
families who count on us to provide sustainable access to enjoyable 
saltwater fishing and tasty seafood.
    Mr. Chairman, thank you again for the opportunity to testify, and 
FWC looks forward to working with you and the members of this Committee 
to advance legislation that strikes the important balance between 
access and conservation.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Wittman to Mr. Nick Wiley, 
   Executive Director of the Florida Fish and Wildlife Conservation 
                               Commission
    Question 1. In my region, anglers are extremely frustrated with 
Federal management of cobia, in which data seems wildly inaccurate 
based on what anglers are experiencing on the water. You noted that 
annual catch limits create a lot of problems when data are lacking. 
I've heard about another issue with cobia, but in your region in the 
Gulf of Mexico, where anglers have been expressing a lot of concerns 
about the health of the fishery. Yet, because the annual catch limit 
wasn't being exceeded, Federal fisheries managers didn't see cause to 
respond.

    I understand your state is proactively implementing more 
conservative regulations for the fishery, but this seems like a big 
problem on the Federal side, where a lack of data combined with the 
annual catch limit requirement can actually put a fish stock MORE at 
risk.

    Would you agree?

    Answer. Florida Fish and Wildlife Conservation Commission (FWC) 
meets five times a year at various locations around the state. This 
allows staff and the commissioners to hear from our stakeholders, 
fishing groups, and other interested parties. Over the course of the 
last few years, FWC staff has been hearing from our anglers about cobia 
mainly in the panhandle in the Gulf of Mexico. In May 2017, FWC held 
five public workshops and one online webinar for all parties to provide 
input. As a result of the feedback from our fishing community and, with 
support from data that we have access to, FWC is taking steps to 
improve the cobia fishery. Our draft regulations, which will be 
presented to the commissioners at the September 2017 meeting for final 
approval, would institute several changes FWC believes will improve 
access and conservation. The last Federal stock assessment for Gulf of 
Mexico cobia occurred in 2013. Because it has been several years since 
the last assessment and anglers have expressed concerns about the cobia 
fishery, the Gulf Council has requested another cobia stock assessment, 
which expected to occur in 2019. Florida anglers have requested that 
FWC take immediate action to conserve Gulf cobia until the next stock 
assessment can be completed. Annual Catch Limits (ACLs) are not a 
universal solution. For years, FWC has been advocating for changes to 
Magnuson-Stevens. That is why FWC believes allowing more flexibility 
and alternative fishery management systems would improve conservation 
and increase access, especially in the recreational sector.

    Question 2. While the Magnuson-Stevens Act has been generally 
successful at rebuilding fish stocks, it has become clear to me based 
on my personal experience and the amount of outcry I hear from other 
recreational fishermen, that the Act hasn't been able to manage that 
success in a way that works for anglers. I know that there are ways to 
adjust this law so that it works better for anglers while maintaining 
conservation safeguards, but in my experience the best conservation 
safeguard we have are anglers themselves.

    Mr. Wiley, in your decades of experience working with the 
recreational fishing community, what do you think recreational 
fishermen want these fisheries to look like and what role should the 
rec community have in conservation efforts?

    Would you agree that modest but important changes are needed to MSA 
to adapt it to work better for recreational fishermen? What changes do 
you think are the most important?

    Answer. As you know, the recreational and commercial fishing 
industry are two different industries. FWC believes Federal and state 
law ought to examine each industry separately and provide solutions 
that work for both industries. Magnuson-Stevens was enacted to address 
issues in the commercial industry. Those laws and regulations do not 
necessarily fit the recreational industry. Therefore, FWC believes 
Magnuson-Stevens ought to be changed to allow more flexibility and 
improvements for the recreational sector. FWC believes H.R. 2023 is a 
good addition to the Federal stage. FWC supports many of the provisions 
in H.R. 2023, including MRIP changes, because those provisions are an 
attempt to provide flexibility and improvements to the recreational 
industry and an attempt to move away from the one-size-fits-all 
management structure currently in place.
    Since I have been executive director at FWC, our goal at FWC is to 
find the right balance of providing access to and preserving our 
natural resources. We work tirelessly to ensure that we have the best 
information from fishing groups, communities, stakeholders, and other 
interested parties, so we are making the right decisions. FWC is 
pleased to work with all parties--recreational, commercial, and charter 
for hire--who share those goals and who want to help us accomplish 
those goals.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. Kaelin, you are now recognized for 5 minutes.

    STATEMENT OF JEFF KAELIN, GOVERNMENT RELATIONS, LUND'S 
             FISHERIES, INC., CAPE MAY, NEW JERSEY

    Mr. Kaelin. Thank you Chairman Lamborn, Vice Chair Webster, 
Ranking Member Huffman, Chairman Bishop, and distinguished 
members of the Subcommittee. Thank you for the opportunity to 
speak with you today on the need to reauthorize the Magnuson 
Act in this Congress, and in strong support of H.R. 200.
    I want to thank Congressman Young for sponsoring that bill, 
and for leading efforts to maintain productive and sustainable 
U.S. fisheries. We also want to thank Secretary Ross for his 
important focus on achieving optimum yield (OY) from each U.S. 
fishery while preventing overfishing, which this bill will help 
to facilitate across the country and in the GARFO region.
    My comments today are on behalf of my employer, Lund's 
Fisheries of Cape May, New Jersey. We are a family-owned and 
operated primary producer of fresh and frozen seafood and high-
quality bait products for recreational and commercial fishermen 
and several U.S. fisheries.
    Since 2006, the U.S. seafood industry has lost access to 
robust fishery resources from the application of overly 
precautious interpretations of the Act by attempting to reign 
in a changing marine environment on an annual basis, or within 
a decadal time frame. We appreciate the fact that this bill 
will improve the situation in the coming years, utilizing a 
collaborative approach and developing better science by which 
better management decisions can be made.
    For the 2006 reauthorization to work, there is a heavy 
reliance on high-quality scientific information. Unfortunately, 
this is information that, in most regions, we simply don't 
have. The juxtaposition of insufficient data on many stocks 
with considerations of scientific uncertainty in the quota-
setting process has resulted in robust precautionary buffers 
and yields below maximum sustainable yield (MSY) at the expense 
of our industries, our communities, and the Nation.
    Several facts justify the idea that additional reform is 
necessary to address the unintended consequences from the 2006 
amendments. NOAA has recently published a re-examination of the 
National Standard One guidelines around realizing OY and 
supporting flexibility, predictability, and stability.
    In 2013, the GAO concluded that the 10-year rebuilding 
requirement was arbitrary, and that the mixed stock exemption 
should be revisited. Many of their recommendations for the 
Managing Our Nations fisheries conference and from the Councils 
strongly support carefully targeted reform.
    We are plagued by the Act's requirement to have all stocks, 
including minor ones, at MSY in the same time, and in the same 
space, which is severely limiting ecosystem-based fishery 
management options at the Council level, with the collective 
result being that we are not meeting our primary Federal 
fisheries management objective to maximize harvest to provide 
the greatest benefit for the Nation.
    In the interest of time, I will quickly summarize our 
support for a few of the most important issues that H.R. 200 
addresses.
    We support flexibility in rebuilding fish stocks as part of 
the path to sustainable fisheries, and support eliminating the 
10-year time frame for rebuilding overfished or depleted 
fisheries, replacing it with a biologically-based foundation.
    We support substituting the term ``overfished'' with 
depleted, as this term more accurately characterized population 
shifts based on environmental and non-fishing impacts.
    We support expanding limitations to annual catch limit 
(ACL) requirements for special fisheries by expanding the 
existing 12-month life history definition for short-lived 
species, which will be a benefit to managing the butterfish 
fishery.
    We support the bill's exemption from ACL control rules for 
trans-boundary stocks, which would be a benefit to managing the 
Atlantic mackerel fishery. We support re-defining ecosystem 
component species as a non-targeted, incidentally harvested 
species which will provide a benefit to our chub mackerel 
management associated with the Illex fishery in the Mid-
Atlantic.
    We support the addition of reciprocal voting rights for 
established Council liaison positions between the New England 
and Mid-Atlantic Councils.
    We support the requirement that a referendum be held before 
instituting a new catch share program in the Mid-Atlantic.
    And we strongly support the bill's intent to ensure 
consistent fisheries management under competing Federal 
statutes, including the Marine Sanctuaries Act, the Antiquities 
Act, and the Endangered Species Act.
    We also appreciate the focus on regional fishery management 
research needs and the potential to use industry platforms in 
support of auxiliary stock assessment surveys. We want to 
emphasize the need for continued and enhanced congressional and 
agency support for collaborative fisheries research involving 
the science centers, the commercial and recreational 
industries, and academic partners, and the need to apply more 
resources toward assessment science and improving the 
assessment process through frequent and timely benchmark 
assessments and updates.
    Mr. Chairman, thank you for holding this hearing today, and 
for your intention to seriously consider moving this bill 
during this Congress.
    We look forward to working with you and the members of your 
staff toward that end.

    [The prepared statement of Mr. Kaelin follows:]
       Prepared Statement of Jeff Kaelin, Lund's Fisheries, Inc.,
                          Cape May, New Jersey
    Chairman Lamborn, Ranking Member Huffman, Vice Chairman Webster and 
distinguished members of the Subcommittee, thank you for the 
opportunity to speak with you today on the need for reauthorization of 
the MSA in this Congress, and in strong support of H.R. 200. I want to 
thank Congressman Young for sponsoring this bill and for leading 
efforts to maintain productive and sustainable U.S. fisheries. We also 
want to thank Secretary Ross for his important focus on achieving 
optimum yield (OY) from each U.S. fishery while preventing overfishing, 
which this bill will help to facilitate across the country and within 
the GARFO region.
    Many of us have been involved in previous reauthorizations which 
used to occur with some regularity and with broad national and regional 
agreement. Although that has clearly not been the case over the last 
decade or so, our recreational and commercial fishing opportunities 
will be needlessly limited, from both an ecosystem and community 
resilience perspective, if reforms cannot be advanced this year.
    My comments today are on behalf of my employer, Lund's Fisheries, 
in Cape May, New Jersey but I want to give credit to Mr. Greg 
DiDomenico, Executive Director of the Garden State Seafood Association, 
for his assistance with this testimony and for emphasizing the need to 
immediately reauthorize this fundamental Federal fisheries law to the 
benefit of our coastal communities and U.S. seafood consumers.
    In addition to my comments being coordinated with Mr. DiDomenico, I 
have also referred to the 2014 Mid-Atlantic Fishery Management 
Council's (MAFMC) comments on an earlier version of this bill, written 
while I was privileged to serve as a Council member. Today, the MAFMC 
is undergoing at least the third rewrite of its risk policy around 
setting science-based Allowable Biological Catch control rules (ABCs), 
which points out the need to continually attempt to apply flexibility 
in balancing resource and community sustainability under the rigid 
standards of the Act as currently written. I also referred to the 
Council Coordinating Committee's June 2017 working paper on 
reauthorizing the Act, which is still in development. My thanks go to 
the New England Council for making this paper available at their 
Portland meeting last month.
    Lund's Fisheries, Inc. is a primary producer of fresh and frozen 
seafood and high-quality bait products for recreational and commercial 
fishermen in several U.S. fisheries. We purchase, process and 
distribute nearly 30,000 metric tons of fresh and frozen fish annually. 
We have about 30 fishing vessels delivering a variety of products to 
our facility year round.
    The majority of these vessels call Cape May their home port. 
Several are company-owned and we also work with independent vessels 
landing from Rhode Island, New York, Virginia, and North Carolina. Our 
East Coast fishing grounds extend from the Gulf of Maine, south through 
Cape Hatteras, North Carolina. The significant number of species we 
handle are managed by two Federal Councils and an interstate 
commission.
    The 2006 Amendments and their subsequent implementation 
fundamentally altered the way domestic fishery resources are managed 
here. The core concept was to separate fish politics from science. 
Those new provisions focused on ending overfishing immediately, 
developing accountability in both recreational and commercial 
fisheries, rebuilding stocks as quickly as possible, and reducing 
fishing capacity through defining limited access programs--all in the 
context of a more intensive reliance on science in the decision-making 
process.
    When the Act was last reauthorized in 2006, we supported the 
science-based focus of the amendments and the adoption of hard catch 
limits. We already had a hard catch limit in the herring fishery that 
long ago and believe today that this has led to a sustainable coastwide 
Atlantic herring resource and fishery.
    Since that time we have learned that improvements in this process 
can and should be made. Adaptive fisheries management would have us 
gather performance data and learn from the unintended consequences that 
are bound to occur and have occurred in managing the dynamic ocean 
environment that New Jersey's recreational and commercial fishing 
industries and communities rely upon for food, jobs and recreation. 
H.R. 200 provides us with that opportunity.
    Since 2006, the U.S. seafood industry has lost access to robust 
fishery resources from the application of overly precautious 
interpretations of the Act by attempting to rein in a changing marine 
environment on an annual basis or within a decadal time frame. The 
result has been that a founding principle of the Act has been eroded to 
the extent where we have lost our collective ability to ``achieve 
optimum yield on a continuing basis'' in our region. Each fishing 
sector benefits from better science and the resulting predictability 
that it brings about, for employees and customers. We appreciate the 
fact that this bill will take us in this direction in the coming years, 
utilizing a collaborative approach in developing better science by 
which better management decisions can be made.
    It has turned out that, while the rigid nature of the time-certain, 
annual adjustments approach may have reduced or eliminated overfishing 
of some directed fisheries, an outcome that we certainly support, in 
many cases it has also led to significant underfishing of other stocks 
due to the domestic seafood industry being subjected to a seemingly 
repetitive, precautionary application of risk averse management 
culminating with significant, unpredictable quota reductions stemming 
from wildly fluctuating estimates of scientific uncertainty. This bill 
will help to minimize that uncertainty in the future and result in more 
U.S. jobs from the sea.
    In 2009, and again in 2016, NOAA revised the National Standard One 
Guidelines (NSG1) requiring the Regional Fishery Management Councils 
(RFMCs) to consider both scientific and management uncertainty when 
setting quotas. Many of these recommendations we strongly support, such 
as the application of a mixed stock exception to the Act's annual ACL 
requirement in certain cases and the authorization for Optimum Yield 
(OY) to be expressed qualitatively in data poor situations. We urge the 
Subcommittee to use this bill to provide a statutory basis for these 
specific allowances in order to enhance flexibility in our region.
    For the 2006 reauthorization to work there is a heavy reliance on 
high quality scientific information. Unfortunately, this is information 
that in most regions we simply do not have. The juxtaposition of 
insufficient data on many stocks with considerations of scientific 
uncertainty in the quota setting process has resulted in robust 
precautionary buffers and yields below MSY (Maximum Sustainable Yield) 
at the expense of the industry and our Nation.
    The following points justify the idea that additional reform is 
necessary to address the unintended consequences from the 2006 
amendments. These include but are not limited to: (1) the Natural 
Resources Committee considered no less than eight bills focusing on MSA 
reform in 2011; (2) the Committee has convened six hearings with 
testimony from almost 100 witnesses in the 113th Congress; (3) NOAA has 
recently published another re-examination of NSG1 advice around 
realizing OY, predictability and stability; (4) in 2013 the GAO 
concluded that the 10-year rebuilding requirement was arbitrary and the 
mixed-stock exemption should be revisited; (5) many of the 
recommendations from the 2013 ``Managing Our Nations Fisheries III'' 
and from the Regional Fishery Management Councils (RFMCs) strongly 
support carefully targeted reform; (6) we are plagued by the Act's 
requirement to have all stocks, including minor ones, at MSY in the 
same time and in the same space, which is severely limiting ecosystem-
based fishery management options at the Council level; and (7) we are 
not meeting our primary objective to maximize harvest to provide the 
greatest benefit to the Nation.
    Our comments follow the outline of H.R. 200 and will emphasize 
reasonable improvements we encourage the Subcommittee and the House to 
support in reauthorizing the Act as soon as possible. We are not 
commenting on sections of the bill related directly to Gulf of Mexico 
or Pacific-specific provisions or provisions related primarily to 
recreational fishing.
SEC. 4. FLEXIBILITY IN REBUILDING FISH STOCKS
    We support flexibility in rebuilding fish stocks as part of a path 
to sustainable fisheries and fishing communities and support the 
elements of this section including eliminating the 10-year time frame 
for rebuilding overfished or depleted fisheries within a particular 
time period, replacing it with a biologically based foundation.
    This section is intended to allow rebuilding plans to take into 
account environmental factors and predator/prey relationships, which we 
strongly support. It is our understanding that the conservative fishing 
mortality rates in the region already allow some 80 percent of an 
available fishery resource to remain in the water each year and there 
is little public understanding of this fact. In addition, a rebuilding 
plan would include a schedule to review FMP targets and progress 
including the option to use alternative harvest control rules and F-
rates, which should help in giving the SSCs and Councils additional 
flexibility in setting ABCs and ACLs (Annual Catch Limits).
    We also support clarifying that a rebuilding plan may be terminated 
if it is determined the stock status determination was incorrect and 
the allowance that an emergency rule/interim measure period may be 
increased to 1 year (from 180 days) with an option to extend for an 
additional 1-year period.
SEC. 5. MODIFICATIONS TO ANNUAL CATCH LIMIT REQUIRMENTS
    This section provides Councils with increased flexibility in 
setting ACLs. The ACL requirement is retained in the Act but the RFMCs 
could consider changes in ecosystem and economic needs of the 
communities when setting limits. In light of changing environmental 
conditions, and the role of the environment in fisheries recruitment, 
these additions make scientific and common sense.
    We strongly support expanding limitations to ACL requirements for 
`special fisheries' by expanding the existing 12-month life history 
definition. We believe butterfish, for example, should fit this 
proposed ACL exemption as a species that exhibits a short life history, 
an extremely high natural mortality rate, and highly uncertain, 
variable survey indices. This combination of factors has resulted in an 
exceedingly variable catch level over time, so that it is not possible 
to accurately determine the condition of the stock or avoid a `choke 
species' outcome with negative effects on fishing for other short-lived 
species like squid.
    The Act currently provides an exemption from the ACL control rules 
for stocks managed under international agreements but does not address 
species that are truly trans-boundary in nature where there is only an 
informal agreement (or no agreement) in place. We support the bill's 
expansion of these extra-territorial considerations.
    For example, in the case of Atlantic mackerel, scientific evidence 
has indicated the stock distribution is shifting into Canadian waters. 
Unfortunately, the United States has no formal trans-boundary sharing 
agreement and Canada takes what they can harvest before a U.S. ACL can 
be specified. In this instance, unilateral U.S. management actions 
pursuant to MSA do not affect rebuilding or end overfishing but 
disadvantage our fishermen and weaken the U.S. negotiating position. 
Due to the lack of a trans-boundary ACL exemption, rigid interpretation 
of MSA requirements, and applications of layers of scientific 
uncertainty, the U.S. mackerel fishery has been severely restricted and 
it has been (and will remain) difficult to rebuild quota levels under 
the existing MSA limitations.
    We also support this section redefining ``Ecosystem Component 
Species'' as a non-targeted incidentally harvested species or those 
species identified by a regional council that is not depleted or likely 
to become depleted in the absence of management measures. These changes 
will provide additional flexibility in allocating directed fishery 
resources by the RFMCs when minor incidental catches are involved. We 
also support the clarification that ACLs can be established for up to 3 
years, which codifies NOAA's related NS1 guideline recommendations, as 
we understand the issue.
SEC. 6. DISTINGUISHING BETWEEN OVERFISHED AND DEPLETED
    This section correctly defines ``overfishing'' and removes the term 
``overfished'' from the Act, substituting the newly defined term 
``depleted,'' which we strongly support. This is an important element 
of this bill as this term more accurately characterizes population 
shifts based on environmental and non-fishing anthropogenic impacts 
instead of characterizing stock impacts as being based solely on 
fishing mortality effects. This section also requires changes to the 
annual Status of Stocks report submitted by the Secretary to 
distinguish between stocks that are depleted or approaching that 
condition due to fishing and those meeting that definition as a result 
of other factors. The Secretary must also state for each identified 
fishery whether they are the target of directed fishing. We support the 
separation and clarification of the two terms and the requirement to 
differentiate sources of mortality when projecting stock status and 
setting ACLs.
SEC. 7. TRANSPARENCY AND PUBLIC PROCESS
    We support requiring each scientific and statistical committee 
(SSC) to expand the transparency of their ABC-setting process. 
Specifically, within the GARFO region (NEFMC & MAFMC) meetings of the 
SSCs, FMATs (fishery management action teams) and PDTs (plan 
development teams) are unevenly webcasted or unevenly provide call-in 
opportunities to facilitate public participation, although this has 
improved in recent years. With the tremendously complex and 
geographically broad management system that we must participate in, 
expanding these requirements will allow for broader participation in 
the process than is currently the case. We also support this section's 
focus on the development of fishery impact statements to specifically 
analyze proposed impacts of management measures on the human 
environment. The process will benefit from required, regular reviews of 
the collective impacts of fishery regulations on our coastal 
communities and economies.
SEC. 8. LIMITATION ON FUTURE CATCH SHARE PROGRAMS
    We support a referendum vote for all future catch share programs 
implemented in the Mid-Atlantic region and we support the establishment 
of a fully-informed majority vote referendum by fishermen with landings 
in 3 of 5 recent years (with allowances for hardship considerations).
SEC. 9. REPORT ON FEE
    We support this sensible provision, providing additional 
transparency in the collection of fees to fund administrative aspects 
of specific fishery management programs including limited access 
privilege programs.
SEC. 10. COOPERATIVE RESEARCH AND MANAGEMENT PROGRAM
    We appreciate the focus on regional fishery management research 
needs and the focus on using industry platforms in support of auxiliary 
stock assessment surveys. We also appreciate the focus on the need for 
more accurate and timely catch reporting through the use of electronic 
reporting systems, which all of our vessels are engaged in at this time 
as part of the Study Fleet concept supported by the Northeast Fisheries 
Science Center's cooperative research program. Although we are also 
participating in a pilot electronic monitoring program in the region's 
Atlantic herring and Atlantic mackerel fisheries, we believe that 
monitoring the Nation's fisheries should continue to be a fundamental 
government function in our region, with the benefit to the Nation 
accruing through our industry's development of the Nation's fishery 
resources. Requiring industry to fund these programs in the future will 
diminish both industry and community resilience since profit margins 
are small in this global business.
SEC. 11. COUNCIL JURISDICTION FOR OVERLAPPING FISHERIES
    We support the addition of reciprocal voting rights to established 
Council ``liaison'' positions between the New England and Mid-Atlantic 
RFMCs. While fishermen in the Mid-Atlantic do not wish to dismantle 
established Council membership, fishermen in New England made the 
request to change that membership. Since this provision establishes a 
limited reciprocal voting right and does not disrupt current Council 
procedures and membership, there is general agreement about this 
provision between fishermen in the two areas. This solution will 
facilitate enhanced coordination between the two Councils and deserves 
the Subcommittee's support.
SEC. 14. ENSURING CONSISTENT MANAGEMENT FOR FISHERIES THROUGHOUT THEIR 
        RANGE
    We strongly support this section's intent to ensure consistent 
fisheries management under competing Federal statutes, including the 
Marine Sanctuaries Act, the Antiquities Act and the Endangered Species 
Act--with the MSA being the controlling statute. We were extremely 
disappointed by the prior administration's establishment of shoreside 
boundaries and commercial fishing restrictions as part of the Northeast 
Canyons and Seamounts National Marine Monument designation. These 
restrictions were unnecessary, from a resource conservation 
perspective, and differed significantly from the ongoing efforts of the 
NEFMC to protect deep-sea coral in the canyon regions. The restrictions 
are also in opposition to the recent successful efforts of the MAFMC to 
balance fishing opportunities in and around the canyons with 
preservation of the vast majority of hard corals found on the canyon 
walls and in the abyss surrounding the distant seamounts.
    Regarding Marine Sanctuaries, many stakeholders who fish in and 
around these areas believe there are definitely conflicting 
jurisdictions between the National Marine Sanctuary Act and the MSA 
when it comes to fishing regulations. We share these concerns relative 
to the Stellwagen Sanctuary's policy goals which are often at odds with 
those of the NEFMC and we are equally concerned about the proposal to 
establish a Hudson Canyon marine sanctuary in the midst of important 
fishing grounds in the Mid-Atlantic region.
    We believe the specific problem appears in Section 304(a)(5) of 
NMSA (16 U.S.C. 1434) whereby the Councils are afforded the opportunity 
to prepare draft regulations using the MSA as guidance only ``to the 
extent that the standards are consistent and compatible with the goals 
and objectives'' of the Sanctuary designation. This is the crux of the 
jurisdictional and philosophical conflict between NOAA/NMFS and NOAA/
National Ocean Service (NOS) as we understand the issues involved.
SEC. 18. ESTIMATION OF COST OF RECOVERY FROM FISHERY RESOURCE DISASTER
    We support requiring the Secretary to rapidly identify fishery 
disaster costs, in order to facilitate appropriate compensation to 
those affected.
SEC. 19. DEADLINE FOR ACTION ON REQUEST BY GOVERNOR FOR DETERMINATION 
        REGARDING FISHERY RESOURCE DISASTER
    We also support requiring timely decisions by the Secretary in 
these circumstances.
SEC. 26. REQUIREMENTS FOR LIMITED ACCESS PRIVILEGES
    We support establishing a more formal and detailed review on the 
operations and impacts of limited access privilege programs, involving 
collaboration with the RFMCs and the Secretary's office.
SEC. 27. HEALTHY FISHERIES THROUGH BETTER SCIENCE
    While we strongly support the linkage between healthy fisheries and 
improved scientific information we are not in support of separating 
recreational fisheries science from that used to manage commercial 
fisheries, as Section (2) would appear to do. Also, we are not in 
support of identifying information from a wide variety of sources, 
particularly that originating from certain non-government sources, as 
necessarily equivalent to the best scientific information available.
    At the same time, we wish to emphasize the need for continued and 
enhanced Agency support for collaborative fisheries research involving 
the Science Centers, industry and academic partners. Not only will 
enhancing this collaboration lead to reducing uncertainties around 
assessing fish stock status in the future but it will also lead to 
broader support for quota outcomes if recreational and commercial 
industry partners are engaged in developing the best available 
scientific information being used in the fishery management process.
    Finally, we want to emphasize the need for Congress and the Agency 
to apply more resources toward assessment science and focus on 
improving the assessment process through more frequent and timely 
benchmark assessments and updates. In this context we were particularly 
disappointed to see that none of the $13.8 million allocated to the 
2017 Coastal Resilience grant program will be used to support enhanced 
fishery stock assessment initiatives in the GARFO region.

                                 *****

    In closing, we would like to sincerely thank the Subcommittee for 
holding this hearing today and for your intention to seriously consider 
important MSA reform during this session of Congress. It is likely that 
my comments today do not fully take into account the variety of issues 
addressed in H.R. 200 or fully grasp the Subcommittee's intent in all 
aspects of the bill. In recognition of this fact, I look forward to 
working with the members of this Subcommittee and your staff to further 
refine the provisions of the Strengthening Fishing Communities and 
Flexibility in Fisheries Management Act and support its passage this 
year.

                                 ______
                                 

    Mr. Lamborn. We will now hear from--I hope I say this 
correctly--Mr. Witek?
    Mr. Witek. Mr. Witek, sir.
    Mr. Lamborn. OK. Mr. Witek, you are now recognized for 5 
minutes.

  STATEMENT OF CHARLES WITEK, RECREATIONAL ANGLER AND OUTDOOR 
                 WRITER, WEST BABYLON, NEW YORK

    Mr. Witek. Mr. Chairman, Mr. Vice Chairman, and Mr. Ranking 
Member, thank you for inviting me to be here today. My name is 
Charles Witek, and I am a recreational fisherman residing in 
West Babylon, New York. I have more than 50 years' experience 
angling on every coast of the United States, including Alaska 
and Hawaii, although I have done most of my fishing off 
southern New England and in the upper Mid-Atlantic.
    I am a writer, specializing in salt water fishery 
conservation issues, and a Vice President of the New York State 
Outdoor Writers Association. I have held a seat on the Mid-
Atlantic Fishery Management Council. I currently sit on the New 
York State Marine Resources Advisory Council, and on the 
Atlantic States Marine Fishery Commission's advisory panels for 
winter flounder and coastal shark.
    My observations while on the water and my experience with 
the fishery management process has made me a strong supporter 
of the conservation and stock rebuilding provisions of 
Magnuson-Stevens. Some claim that the Act is too restrictive 
and leads to regulations that harm fishing-related businesses. 
But the lack of adequate fisheries regulation is far more 
likely to do lasting damage.
    Nothing illustrates that better than the recreational 
winter flounder fishery in the state of New York. Since the 
late 1980s, the recreational fishing industry has argued that 
additional restrictions on the winter flounder fishery would 
cause them to lose business. So, regulations were never 
adequate to halt a stock decline, and the stock collapsed.
    NMFS recreational fishing effort estimates show that 1986 
New York anglers made over 1 million fishing trips targeting 
winter flounder. In 2016, after the collapse, New York anglers 
made only about 74,000 such trips, and our angling-related 
businesses lost the revenues that would have accrued from 1 
million winter flounder fishing trips each year.
    The East Coast is a living laboratory that allows us to 
evaluate the consequences of various approaches to fisheries 
management. The Mid-Atlantic Fishery Management Council is 
quick to adopt regulations consistent with the intent of the 
Act, and we enjoyed a number of years when no Council-managed 
stock was either overfished or experiencing overfishing.
    The New England Council tried to temper the Act's mandates 
with various economic concerns. Instead of imposing annual 
catch limits, it adopted so-called input controls, such as trip 
limits and limits on days at sea, which never manage to end 
overfishing. As a result, our recreational fisheries for many 
groundfish species have declined precipitously.
    Since 1996, Federal fisheries managers have successfully 
rebuilt 41 stocks, and many others are well on the road to 
recovery. During the same period, the Atlantic States Marine 
Fisheries Commission employed a flexible management approach 
that failed to rebuild a single stock that falls under its old 
jurisdiction. A number of stocks, including American eel, 
southern New England lobster, American shad, northern shrimp, 
tautog, and weakfish declined during that time. Even striped 
bass, ASMFC's singular fishery management success, has 
experienced a decline, and the population is now hovering just 
above the overfished threshold.
    It is thus clear that the Act, with its annual catch limits 
and rebuilding deadlines, provides the only framework for 
fisheries management that has met with consistent success. If 
we want an angling industry, we must have fish. Not just small, 
overfished populations, but an abundance of fish that will 
allow even unskilled anglers to catch a few.
    Today, New York's angling industry sits atop a tippy, 
three-legged stool. One leg is made up of striped bass, another 
of summer flounder. The third consists of everything else, none 
of which is abundant enough or popular enough to support the 
stool by itself. If any leg of that stool collapses, New York's 
angling industry will collapse, as well. The fact that both 
striped bass and summer flounder are almost overfished gives 
real cause for concern.
    Making the Act more flexible, weakening its requirements to 
use the best-available science, or allowing anglers to overfish 
will not, in the long run, help fishermen or the businesses 
they support. Our fishery cannot long survive if all effort is 
concentrated on a handful of species that remain relatively 
abundant. Currently depleted stocks must be rebuilt.
    Thus, it is critical that the conservation and management 
provisions of the Act remain strong. Only the best peer-
reviewed science should be used in assessments, and anglers 
must act on such science, whatever its conclusions.
    Finally, the Act must concentrate not only on the species 
we fish for. It must assure that there are adequate forage 
species for them to feed on, healthy corals, sponges, and other 
life to provide habitat and nursery areas, and intact 
ecosystems in which they can function. By achieving those 
goals, Congress can assure that the Act remains the most 
comprehensive and most effective fisheries management law, not 
only in the United States, but in the world.
    Thank you.

    [The prepared statement of Mr. Witek follows:]
 Prepared Statement of Charles A. Witek, III, Recreational Fisherman, 
                         West Babylon, New York
    My name is Charles Witek. I am a recreational fisherman residing in 
West Babylon, New York.
    I have fished for most of my life, and have more than 50 years' 
experience angling on every coast of the United States, including 
Alaska and Hawaii, although most of my angling has taken place in 
southern New England and the upper Mid-Atlantic region. I am a writer 
specializing in salt water fishery conservation issues, and a vice 
president of the New York State Outdoor Writers Association.
    I have also been active in the fishery management process. I 
formerly held a seat on the Mid-Atlantic Fishery Management Council, 
and currently sit on the New York State Marine Resources Advisory 
Council, and on the Atlantic States Marine Fisheries Commission's 
advisory panels for winter flounder and coastal sharks.
    My observations while on the water and my experience with the 
fishery management process has made me a strong supporter of the 
Magnuson-Stevens Fishery Conservation Act (Act) and, in particular, the 
conservation and stock rebuilding provisions of such Act which were 
added during the previous two reauthorizations. Thanks to the Act, the 
Federal fishery management system is undoubtedly the most comprehensive 
and most effective fishery management system in the Nation, which has 
successfully ended overfishing in most American fisheries, and has 
successfully rebuilt 39 once-overfished stocks.
    Unfortunately, the most important and effective provisions of the 
Act are coming under attack by some members of the recreational fishing 
community, persons and organizations who apparently value the short-
term exploitation of America's marine resources more highly than the 
long-term health and abundance of the Nation's fish stocks. Years of 
experience as an angler and as a participant in the management process 
have taught me that such an approach is ultimately self-defeating; 
while it may provide a greater short-term economic benefit, in the end, 
it depletes fish populations and causes far greater economic hardship 
than the fishing industry would have experienced had adequate 
regulations been imposed, and the stocks rebuilt to sustainable levels.
    Nothing illustrates that better than the recreational winter 
flounder fishery in the state of New York.
    New York fishes on what is known as the southern New England/Mid-
Atlantic stock of winter flounder (Southern Stock). Such flounder spawn 
in inshore bays and estuaries during late fall and early spring. When 
waters warm in late May and June, much of the population moves offshore 
for the summer, then returns to the bays when the waters cool in the 
fall; the remainder of the population remains in inshore waters, where 
it once supported a modest fishery during the summer.
    When winter flounder are offshore, in Federal waters, they are 
managed by the National Marine Fisheries Service (NMFS), acting in 
conjunction with the New England Fishery Management Council, which 
refused to impose hard quotas on the fishery until compelled to do so 
by the most recent reauthorization of the Act. As a result, the 
Southern Stock became seriously overfished, and remains so today.
    When winter flounder are in state waters, they are managed by the 
states, acting collectively through the Atlantic States Marine 
Fisheries Commission (ASMFC). While in state waters, winter flounder 
may be particularly vulnerable, both when they are aggregated on their 
spawning grounds and when they group together in thermal refuges near 
ocean inlets during the summer. Despite such vulnerability, ASMFC has 
been reluctant to adopt regulations more restrictive than those adopted 
by NMFS (although when NMFS imposed a brief moratorium on harvest of 
the Southern Stock a few years ago, ASMFC refused to impose a similar 
moratorium inshore, instead merely imposing more restrictive 
regulations that allowed both the commercial and recreational fisheries 
to continue).
    In the late 1980s, when New York recognized that the Southern Stock 
had begun to decline, it proposed rules to limit the recreational 
harvest, which had previously been completely unregulated. The 
recreational fishing industry objected, arguing that their customers 
needed the ``perception'' that they could have a ``big day,'' and bring 
home a large number of fish, or they wouldn't bother to go fishing at 
all. That argument won the day, inadequate regulations were imposed, 
and the fishery entered a cycle of decline in which regulations, always 
opposed by the recreational fishing industry, were never stringent 
enough to halt the Southern Stock's decline.
    The effect on both the fish and the recreational fishing industry 
was catastrophic. New York's winter flounder population collapsed, and 
so did the fishery. NMFS' recreational effort estimates show that in 
1986, New York anglers made over 1 million fishing trips targeting 
winter flounder. Thirty years later, in 2016, New York anglers made 
only about 74,000 such trips, less than 7 percent of the trips made 
three decades before.
    Because they sought to avert the whatever minor economic impacts 
might have accompanied regulations restrictive enough to rebuild, or at 
least stabilize, the Southern Stock, New York's recreational fishing 
industry has now lost the economic benefits that would have accrued 
from nearly 1 million winter flounder fishing trips each year. That is 
not income that can easily be replaced by anglers fishing for other 
species, because the winter flounder fishery was most actively 
prosecuted during seasons when few other inshore fish are available; in 
the 1980s, I used to have my boat in the water by mid-March, so that I 
could fish the entire winter flounder season. Today, I launch the boat 
in mid-May, as without the flounder, there is little reason to be on 
the water any sooner. Most other local anglers have done the same 
thing. That delay represents 2 months' income denied to tackle shops, 
gas docks, boat liveries and other fishing-related businesses, all 
because the industry fought needed fishery regulations that could have 
kept the stock healthy and kept anglers on the water.
    When some angling spokespersons argue that Magnuson-Stevens doesn't 
adequately address the needs of recreational fisheries, that 
``alternative management measures'' are needed to properly regulate 
anglers or that Magnuson-Stevens needs to be more ``flexible,'' they 
are, in effect, arguing that Magnuson-Stevens should be weakened, to 
allow other fish to be managed in the same way as winter flounder, with 
economic concerns given parity with biological imperatives. The story 
of the Southern Stock winter flounder demonstrates that such 
management, while superficially attractive to the recreational fishing 
industry, will ultimately cause such industry serious harm.
    Critics of the Act, who claim that the law needs more 
``flexibility,'' are essentially arguing that firm rebuilding schedules 
and hard-poundage catch quotas often do not allow anglers to take home 
enough fish. They ask that the Act be amended to allow longer 
rebuilding times and the less restrictive regulations that such longer 
rebuilding times would bring.
    However, most anglers are more concerned with the abundance that 
comes from a fully rebuilt resource than they are with bringing a lot 
of fish home.
    In 2013, the National Marine Fisheries Service released a report 
titled ``Attitudes and Preferences of Saltwater Recreational Anglers: 
Report from the 2013 National Saltwater Angler Survey, Volume I.'' That 
report, developed from a survey of anglers on every coast of the United 
States, found that more than 80 percent of anglers just thought that it 
was important (either ``extremely important'' or ``somewhat 
important'') to merely catch fish when they go fishing. More than 60 
percent said that it was important to ``know that I will encounter 
abundant fish.'' On the other hand, only about 40 percent said that it 
was important ``to catch as many fish as I can for consumption,'' while 
fewer than 40 percent thought it was important to catch the bag limit 
of whatever they were fishing for. Most anglers surveyed, roughly 90 
percent, valued spending fishing time with family and friends more than 
they did any fish-related aspect of the sport. Thus, the need to add 
``flexibility'' to the Act in order to keep anglers fishing appears to 
have little objective support.
    Striped bass, although not a federally-managed species, illustrate 
the importance of abundance. In 1986, when the Atlantic striped bass 
stock was in the midst of a collapse, NMFS data reveals that East Coast 
anglers made about 300,000 trips targeting the species. Strict harvest 
regulations imposed by ASMFC managed to successfully rebuild the 
population; in 1995, the year that the stock was officially declared 
``recovered,'' increased abundance caused that effort figure to 
increase by more than an order of magnitude, to more than 5,000,000 
trips. As the stock continued to grow, anglers fished even more, making 
over 8,700,000 million trips in 2003, the year the biomass peaked, and 
more than 10,500,000 trips in 2007, when larger fish from the dominant 
1993 and 1996 year classes were readily available to recreational 
fishermen.
    However, as the striped bass stock began to decline, plagued by the 
twin problems of below-average recruitment and overfishing, effort 
declined as well, dropping to about 6,100,000 million trips--nearly as 
few as were made in 1995, when the stock was newly recovered--in 2014, 
when the flexibly managed striped bass population again hovered just 
above the threshold that denotes an overfished stock.
    ASMFC left recreational striped bass regulations unchanged from 
1995 through 2014; for all of that time, it allowed coastal anglers to 
take home two striped bass per day, provided that they were at least 28 
inches long (regulations were slightly different, but still consistent, 
in the waters of Chesapeake Bay).
    Thus, it is clearly abundance, rather than the size of the 
allowable harvest, that drove angler effort, and what is true in the 
striped bass fishery is true in other fisheries as well. Abundance, 
that allows anglers to reliably encounter fish, is far more important 
than bag and size limits in encouraging angler participation.
    There is another strong argument against adding flexibility to the 
Act: It doesn't work.
    On the East Coast, fishermen exist in a living laboratory that 
allows us to experience the consequences of various approaches to 
fisheries management. In the Mid-Atlantic, where our regional fishery 
management council was quick to adopt regulations consistent with the 
intent of the Act, we enjoyed a number of years where no council-
managed stock was either overfished or experiencing overfishing. 
Although a combination of 6 years of below-average recruitment and 
recreational overharvest has recently subjected one species, summer 
flounder, to overfishing again, other species under the jurisdiction of 
the Mid-Atlantic Fishery Management Council remain abundant and support 
active fisheries.
    In New York, we once fished for species such as cod, pollock, 
various hakes and winter flounder, all of which are managed by the New 
England Fishery Management Council. The New England Council, unlike the 
Mid-Atlantic, inevitably tried to temper the Act's mandates with 
various economic considerations. Thus, it eschewed hard-poundage annual 
catch limits for most species until it was compelled to impose them. 
Instead, it adopted alternative management measures such as trip 
limits, limits on days at sea and other so-called input controls, which 
theoretically complied with the Act, but never managed to get 
overfishing under control or rebuild most overfished stocks. As a 
result, New York's recreational fisheries for cod, pollock, silver hake 
(``whiting'') and white hake have declined precipitously, winter 
flounder have collapsed and red hake (``ling'') are far less abundant 
than they were a few decades ago.
    New York's inshore fisheries are managed in cooperation with ASMFC, 
which employs a ``flexible'' management system that does not require 
overfishing to be ended, stocks to be rebuilt by a particular deadline 
or the best scientific information to be used when evaluating the 
health a stock. It hasn't worked.
    The fate of tautog, an inshore food fish caught between 
Massachusetts and Virginia, demonstrates that fact. ASMFC knew as early 
as 1996 that fishing mortality had to be significantly reduced. 
However, since the reduction would inevitably involve some economic 
distress to the fishing industry, and there was no legal requirement to 
end overfishing or rebuild the stock by any time certain, ASMFC kept 
putting off the required reductions. Today, 21 years later, the species 
remains overfished and subject to overfishing, as large segments of the 
local recreational fishing industry are again girding to fight the 
regulations needed to rebuild the stock.
    Since the Act was amended in 1996, and provisions that required 
managers to end overfishing and rebuild overfished stocks by a time 
certain became a part of the law, Federal fisheries managers have 
successfully rebuilt 39 stocks, and many others are well on the road to 
recovery. During the same period, ASMFC, employing its flexible 
management approach, has failed to rebuild a single stock that falls 
under its sole jurisdiction, and has seen a number of stocks, including 
American eel, the southern New England stock of American lobster, 
American shad, northern shrimp, tautog and weakfish, decline during 
that time.
    It could also be easily argued that ASMFC, and its failure to 
impose adequately restrictive restrictions on its member states, is 
responsible for the overharvest in the recreational summer flounder 
fishery, as it is ASMFC, and not NMFS, which approves all recreational 
regulations for that species.
    Even striped bass, ASMFC's singular fisheries management success 
story, are now far less abundant than they once were. Although the 
stock was declared fully recovered in 1995, and became even more 
abundant shortly after that, the lack of an annual catch limit, coupled 
with a failure to respond to increased recreational fishing effort, led 
to a decade-long decline that now has the population hovering just 
above the biomass threshold that determines an overfished stock.
    It is thus clear that the Act, with its current, mandated annual 
catch limits and clear rebuilding deadlines, provides the only 
framework for fisheries management that has met with consistent 
success. It should also be clear that so-called flexibility provisions 
would only weaken the Act and render it less effective.
    The same can be said of so-called ``alternative management 
measures'' that would replace hard-poundage annual catch limits with 
other means of regulating recreational fisheries.
    Annual catch limits are established to prevent overfishing that 
could threaten the health of the stock. Because any regulatory scheme 
involves judgment calls, there will sometimes be miscalculations and 
overfishing will occur. However, a single incident of overfishing, so 
long as it is quickly detected and remedied, is unlikely to harm a 
healthy stock, although undetected overfishing can cause real harm, 
particularly if a stock is already in decline.
    Some angling and boating organizations have argued that poundage-
based catch limits should be replaced with limits based on a fishing 
mortality rate. On its face, such suggestion is pointless, as poundage 
and fishing mortality rates are just two ways to express the same 
value. An instantaneous fishing mortality rate is easily translated 
into the percentage of fish that may be removed from a stock each year; 
multiplying that percentage by the biomass estimate yields a hard-
poundage annual catch limit. Similarly, the number of fish removed from 
the stock over the course of a year, divided by the biomass estimate, 
yields a percentage that can be translated into the fishing mortality 
rate. Thus, from a management standpoint, there is no real difference 
between the two values.
    However, what proponents of a fishing mortality rate standard seem 
to be seeking is not an annual evaluation of fishery performance, but 
rather a longer-term process that requires a full stock assessment. 
While estimates of recreational landings are available 45 days after 
the close of each 2-month ``wave,'' so overfishing can be detected, and 
addressed, relatively quickly, preparing even an interim stock 
assessment is a much longer process.
    Because of that, using assessment-based fishing mortality rates, 
rather than annual catch limits, to regulate a recreational fishery 
could allow overfishing to continue unabated for a substantial period 
of time; depending upon the frequency of the assessments, it could take 
several years before it is even detected.
    Again, striped bass provide an example.
    Transcripts of ASMFC Striped Bass Management Board meetings, along 
with Striped Bass Technical Committee reports and stock assessment 
updates show that there was concern about a decline in striped bass 
abundance as early as 2007. A 2011 stock assessment update indicated 
that the striped bass stock would probably become overfished by 2017. 
However, the Striped Bass Management Board chose to take no action 
because the stock was not yet overfished. A new stock assessment was 
finally undertaken in 2012, and completed in 2013. Based on that 
assessment, which showed that overfishing had occurred in 6 of the 
previous 10 years, more restrictive regulations were adopted in 2014, 
but not imposed until the 2015 fishing season. Because of the long 
delay, a stock that had still been very abundant, if already declining, 
in 2007 nearly became overfished a decade later due to a delay in 
adopting needed harvest cutbacks.
    While the once-abundant striped bass stock could survive such a 
dilatory process, applying it to populations that have already suffered 
sharp declines in abundance, such as summer flounder, or to still-
overfished but rebuilding stocks such as Gulf of Mexico red snapper, 
could easily result in undetected years of overfishing driving the 
stock well below the biomass threshold before any action is taken, an 
event that would do serious harm to both the stock and those who fish 
for the affected species.
    The same problems occur when efforts are made to change the way 
fisheries data is gathered.
    As a rule, fishermen don't understand the concept of unbiased 
surveys, which are needed to properly assess fish stocks. Instead, they 
constantly complain that scientists aren't fishing ``where the fish 
are,'' and argue that if they could do the sampling, they would prove 
that there are more fish in the ocean than managers believe. Thus, we 
see some pending legislation propose that data obtained from fishermen 
and fishing communities be used by fishery managers when preparing 
stock assessments, without providing any standards that should be used 
to assess the quality and accuracy of such data.
    When the striped bass population collapsed in the late 1970s and 
early 1980s, there were anglers on Cape Cod, Massachusetts who didn't 
believe that there was any scarcity, because they happened to have a 
local abundance of big fish off their shores, and were catching plenty 
of them. Winter flounder have become so scarce in New York's bays that 
they are suffering from inbreeding, yet the few fish that remain tend 
to be found together, so the angler that happens to know where to find 
them can catch a number of flounder in a short time. The same thing is 
happening with cod off New England; some commercial fishermen are 
saying that they are catching more cod than they ever have before, 
because the remaining fish school tightly together, and those who know 
where to find them quickly fill their nets. The Commonwealth of 
Massachusetts has created its own cod survey, hoping to find that its 
fishermen are right, but up to now, the survey, conducted according to 
scientific protocols, is confirming NMFS' contention that the cod 
population has fallen into a very deep decline.
    Using anglers' reports, whether voluntary or required, to 
supplement or contradict NMFS' Marine Recreational Information Program 
(MRIP), is flawed for similar reasons. Historically, anglers' reports, 
even when mandated by law, are not reliable. When I attended NMFS' 
recreational fishing conference in 2014, I spoke with a member of the 
agency's Highly Migratory Fisheries division, who lamented that only 
about 20 percent of anglers report their bluefin tuna landings, even 
though reporting within 24 hours in required by law. More recently, 
according to the Tuscaloosa News, the state of Alabama has revealed 
that, during the state red snapper season, only about 7 percent of 
anglers that caught red snapper reported those catches to the state, 
even though such reporting is mandatory. Such discouragingly low 
compliance rates cast serious doubts on the validity of angler-
generated data.
    Accurate stock assessments, and the effective regulations that are 
based on such assessments, require unbiased data collected in 
accordance with a statistically valid methodology, which can survive 
the rigors of a scientific peer review. Thus, data obtained from non-
scientific sources should be viewed with great skepticism.
    Having said that, some of the criticism of MRIP is valid, not 
because MRIP is flawed, but because the data isn't being used properly. 
The Act states that stocks of fish should be managed as a unit, and the 
MRIP Handbook issued by NMFS makes it clear that MRIP accuracy 
increases with the number of samples taken. That being the case, when 
NMFS permits the states to adopt state-specific regulations, that 
differ from those of their neighbors, will inevitably cause problems.
    MRIP estimates for landings in any particular state are based on 
far fewer samples than estimates for landings along the entire coast, 
and thus are less accurate. When the state data is broken down further, 
to allow states to change size and/or bag limits during the same 
fishing year, as is the case with black sea bass, samples become 
smaller yet, and the data even less accurate. Regulations that are 
based on such data cannot properly govern harvest, as they are not 
based on reliable information. Language that clarifies the requirement 
that a stock be managed as a single unit, with consistent regulations, 
would significantly improve the accuracy of fishery management 
measures.
    In the end, we must all realize that if we want a fishing industry, 
it helps to have fish. Not just small, overfished populations, but an 
abundance of fish so that even anglers will very modest skills can go 
down to the shore with a reasonable expectation of catching something, 
even if they don't catch too many at any one time.
    The decline of New York's recreational fishing industry parallels 
the decline of its recreational fishing experience. At one time, we had 
a vital, year-round recreational fishery.
    Throughout the year, angling businesses did well. Some season saw 
some fish more abundant than others, but there were always enough fish 
of some sort to keep anglers active and content.
    Today, New York's angling industry sits atop a tippy, three-legged 
stool. One leg of that stool is made up of striped bass, another of 
summer flounder. The third is made up of everything else, none of which 
is abundant enough or popular enough to support the stool by itself.
    The spring mackerel and pollock runs, and the New York bight silver 
hake fishery, are entirely gone. Swordfish no longer fin out within 
sight of Montauk Lighthouse. Winter flounder have collapsed, and the 
cod, weakfish and tautog fisheries are badly diminished. Offshore, 
white marlin are rarely seen on the inshore grounds, the canyon tuna 
fishery is a shadow of it was and giant bluefin are scarce. Atlantic 
bonito and inshore yellowfin tuna are also scare, and even sharks have 
become smaller and harder to find. Only black sea bass, bluefish and 
scup, all managed by the Mid-Atlantic Fishery Management Council in 
strict compliance with the Act, give this leg strong support.
    That should cause concern, because if any leg of that three-legged 
stool collapses, New York's angling industry will collapse right along 
with it. The fact that populations of both striped bass and summer 
flounder are close to their biomass thresholds should make that concern 
greater still.
    Making the Act more flexible, weakening its requirements to use the 
best available science, or allowing anglers to overfish will not, in 
the long run, help fishermen, and the businesses that they support. Our 
fishery cannot long survive if it depends on a handful of still-
available species; we must return currently depleted species to real 
abundance, so that anglers and angling-related businesses can spread 
their effort over a number of stocks, instead of concentrating on just 
one or two.
    Thus, it is critical that the conservation and management 
provisions of the Act remain strong, so that stocks are promptly 
rebuilt and not subject to overfishing. Only the best, peer-reviewed 
science should be used in assessments, and managers must act on such 
science, whatever its conclusions. Finally, the Act must not 
concentrate merely on the species we fish for, but on the habitat in 
which such fish live, assuring that there are adequate forage species 
for them to feed on, healthy corals, sponges and other sessile life to 
provide habitat and nursery areas, and intact ecosystems in which our 
fish function.
    By achieving those goals, Congress can assure that the Act remains 
the most comprehensive and most effective fisheries management law not 
only in the United States, but in the world.
    Thank you for considering my comments.

                                 ______
                                 

 Questions Submitted for the Record by Rep. Grijalva to Charles Witek, 
             Recreational Fisherman, West Babylon, New York
    Question 1. The 10-year time frame for rebuilding that is currently 
provided in the law has an exception for situations when rebuilding is 
not possible within 10 years. Opponents to the 10-year time frame speak 
of it as an ironclad mandate, but what percentage of rebuilding plans 
are subject to a strict 10-year time frame and what percentage are not?

    Answer. According to a list of rebuilding plans in effect or in 
preparation provided by the National Marine Fisheries Service, as of 
December 31, 2016, there were 47 stocks that were either overfished or 
subject to a rebuilding plan. Of those stocks, only 13, or about 28 
percent, are subject to rebuilding time frames of 10 years or less. One 
of the stocks subject to a 10-year rebuilding deadline, the Georges 
Bank/Gulf of Maine stock of white hake, is no longer overfished, but 
has also failed to completely rebuild within 10 years; it is in its 
13th year of rebuilding, and fishing continues at levels consistent 
with the recovery of the stock.
    1a. Can you please elaborate on those situations that are given an 
exemption to the 10-year time frame, and explain how those are 
determined?

    Answer. Of the 34 overfished and/or rebuilding stocks not subject 
to the 10-year time frame, 6 (13 percent) fall under the exception for 
stocks managed ``under an international agreement in which the United 
States participates.'' Three others (6 percent) have no set rebuilding 
deadline due to insufficient knowledge regarding the life histories of 
the relevant species, while two stocks (4 percent) have only recently 
been declared overfished, and no rebuilding plans have yet been 
developed. The remaining 23 stocks (49 percent) fall under the 
exception to the 10-year timeline created for cases ``where the biology 
of the stock of fish'' requires a longer rebuilding period. While I am 
not familiar with how the rebuilding times have been determined for 
each of those 23 stocks, current guidelines adopted by the National 
Marine Fisheries Service, which may be found at 50 C.F.R. 600.305 et 
seq., provide three methods for determining rebuilding timelines for 
stocks that, for biological reasons, cannot be rebuilt within 10 years. 
The relevant regional fishery management council may select a 
rebuilding time that is equal to (1) the minimum time it would take to 
rebuild the stock in the absence of any fishing mortality, plus one 
mean generation (the average time it takes a fish to mature and first 
produce young) for the species in question; (2) the time it would take 
to rebuild the stock if it was fished at 75 percent of the maximum 
fishing mortality threshold; or (3) twice the time that it would take 
to rebuild the stock in the absence of any fishing mortality.

    Question 2. We heard from Mr. Wiley that alternative management 
measures do not give recreational fishermen a ``blank check'' when it 
comes number of fish. However, the ``blank check'' is what happens when 
it comes to recreational reporting. Mr. Kaelin stated that the 
accountability measures that we see in the commercial fishing industry 
are much stronger in comparison to the recreational side. Can you 
please provide some potential remedies for the lack of data and 
accountability in recreational fisheries?

    Answer. Lack of data and lack of accountability in recreational 
fisheries are two different problems with different solutions, although 
they do intersect when recreational fishermen challenge the need for 
accountability measures by citing allegedly poor data.
    The lack of data, or at least the alleged lack of reliable data, is 
by turns the simplest and the most difficult problem to remedy. It is 
the simplest problem to remedy because it could readily be addressed if 
more funding was made available to pay for data-gathering efforts. That 
is particularly true in the case of the Marine Recreational Information 
Program (MRIP), used to estimate recreational landings, as the 
precision of the landings estimates is directly related to the number 
of anglers surveyed (In the case of MRIP's forerunner, the Marine 
Recreational Fishing Statistical Survey, the precision of the estimates 
was inversely related to the square of the number of surveys made; that 
is, to cut error in half, it was necessary to interview four times as 
many anglers, etc. As far as I know, the same rule applies to MRIP.) 
Additional funding would also permit more stock assessments to be made, 
additional research to be conducted to inform such assessments, etc. 
Having said that, the data issue is, as a practical matter, a very 
difficult problem to remedy because Congress has historically been very 
reluctant to appropriate adequate funds to the National Marine 
Fisheries Service for data-collection purposes; the budget proposal 
recently adopted by the House continues such practice of underfunding 
needed research.
    Accountability measures in the recreational fishery present a more 
complex issue. In the commercial fishery, mandatory reporting makes it 
possible to accurately estimate landings in near real time. In the 
recreational fishery, landings are estimated, and such estimates are 
only available 45 days after the end of each 2-month ``wave.'' Because 
of that combination of estimated landings and the delay before such 
estimates are finalized, the recreational fishery is not amenable to 
the in-season accountability measure most often used in the commercial 
fishery--shutting down the fishery when the annual catch limit is 
reached. Uncertainty inherent in the recreational landings estimates 
also make the most common retrospective accountability measure used in 
the commercial fishery--pound-for-pound paybacks in the following 
season--difficult to impose in the recreational fishery; when such 
paybacks are employed, as they are in the Gulf of Mexico recreational 
red snapper fishery, they are frequently subject to challenges based on 
the quality of the landings data. Thus, the most appropriate, and 
arguably the most effective, accountability measure for use in 
recreational fisheries is a prospective one, reducing the Acceptable 
Biological Catch by some percentage that reflects the management 
uncertainty created by imprecise landing estimates to produce a more 
conservative Annual Catch Limit. Creating such a buffer for management 
uncertainty would inevitably meet initial resistance from the angling 
community; however, a properly constituted buffer that leads to 
regulatory stability would, in the long term, be welcomed by anglers 
previously frustrated by constantly changing regulations that appear 
unrelated to the health of the relevant fish stock.

    2a. Can you elaborate on tools like mandatory reporting, descender 
devices, or others, and how these can help increase access for 
recreational fishermen?

    Answer. Tools like mandatory reporting and descending devices could 
increase access for recreational fishermen by reducing uncertainty in 
estimates of recreational fishing mortality and thus lead to relaxed 
regulations; mandatory reporting could reduce the management 
uncertainty arising out of recreational harvest estimates, while tools 
such as descender devices could reduce actual discard mortality and the 
scientific uncertainty arising out of estimates of such mortality. 
Unfortunately, despite how beneficial such tools might be for 
recreational fishermen, there is little reason to believe that anglers 
are willing to embrace their use.
    Mandatory reporting is already in place in some recreational 
fisheries. In the recreational Atlantic bluefin tuna fishery, anglers 
are required to report all fish landed within 24 hours, yet when I 
spoke with someone employed by the National Marine Fisheries Service's 
Highly Migratory Species Division at the agency's 2014 Recreational 
Fisheries Conference, I was told that the Service believes that only 
about 20 percent of anglers report their harvested bluefin. A similar 
situation exists in Alabama's red snapper fishery, which also requires 
that all red snapper caught be reported to the state before or 
immediately after landing. According to a June 24, 2017 article in the 
Tuscaloosa [AL] News, the Alabama Marine Resources Division estimates 
that a mere 7 percent of anglers reported their red snapper landings 
during Alabama's 2017 state season; that figure improved slightly, to 
22 percent, during the original, 3-day 2017 Federal season, but even 
that figure is dismally low for what is supposed to be a mandatory 
reporting program. There are many reasons for such noncompliance. Some 
anglers undoubtedly just forget. Others feel that they can forego the 
trouble of reporting with impunity. And there is a significant portion 
of the angling community who believes that, if they don't report their 
catch, harvest estimates will be lower, and lead directly to more 
relaxed regulations in the future (at least in the northeastern bluefin 
tuna fishery, which I have actively participated in for more than 40 
years and so know very well, there is also a significant number of 
anglers who do not adhere to the regulations, and so don't report in an 
effort to avoid self-incrimination). As a practical matter, only 
mandatory reporting requirements that can be easily enforced (e.g., the 
operator of the vessel must call in and report catch prior to landing, 
so that an enforcement officer meeting the boat at the dock can easily 
determine whether the required report was made) and carry significant 
sanctions for noncompliance are likely to be followed by the majority 
of anglers.
    Descending devices offer a similar challenge. Research has 
demonstrated that they are effective in reducing the impacts of 
barotrauma and so in reducing discard mortality. The key question, 
however, is whether anglers, well out of sight of both land and the 
eyes of enforcement officers, will employ them on a regular basis, 
particularly when the fishing is fast and time spent employing 
descender devices is time when anglers could, instead, be catching more 
fish. I suspect that many (but far from all) private boat anglers would 
employ descenders, particularly when fishing is relatively slow. I 
suspect that many (but also far from all) charter boat operators would 
use them as well. However, they probably would not meet with much 
acceptance in high-volume deep water party boat fisheries where, as a 
practical matter, a three- or four-person crew would be physically 
unable to employ descender devices to return all of the fish released 
by 40 or more passengers over the course of a trip. They would simply 
become overwhelmed. Anti-regulation sentiments in the party boat fleet, 
particularly those boats that sail from the upper Mid-Atlantic ports 
that I am most familiar with, would also militate against the use of 
descenders. The problem is encapsulated in a February 2012 article in 
the Asbury Park [NJ] Press, which described an incident aboard the 
party boat Jamaica, which sails out of Brielle, New Jersey. According 
to that article, although the boat sailed in search of cod and other 
groundfish, it returned to the dock with 819 illegal (out-of-season) 
black sea bass. As the reporter noted, ``Black sea bass are not catch-
and-release fish. They have a swim bladder that enables them to 
maintain their buoyancy in deep water. When the fish are reeled up from 
the depths, their swim bladder expands . . . The fish can then no 
longer return to the bottom . . . Instead of swimming, the fish float 
on the surface and die.'' Thus, black sea bass are exactly the kind of 
fish that would benefit from the use of descenders. However, when the 
captain of the Jamaica was asked whether he knew that his passengers 
were keeping so many illegal fish, he reportedly responded ``I didn't 
think it was that many. And I'm not getting paid by the state of New 
Jersey to take fish out of people's buckets.'' While one can only 
speculate as to whether someone with such an attitude would bother to 
use descenders to release 819 black sea bass, caught by roughly 40 
anglers, over the course of a trip, the quote does give reasonable 
cause to believe that, absent a viable enforcement mechanism that can 
lead to substantial penalties, regulations requiring descenders would 
meet with only limited compliance.
    Regardless of the tools involved, and how beneficial the use of 
such tools might be to recreational fishermen, regulations requiring 
their use would probably not currently meet with widespread buy-in by 
the angling community. Various angling rights groups and angling 
industry members have, over the past several years, campaigned against 
Federal fisheries management and Federal fisheries regulations. Such 
campaign has undercut the stature of fisheries managers and damaged the 
credibility of the regulatory process in anglers' eyes. In such an 
environment, the greater angling community is unlikely to cooperate 
with any regulatory requirements that they view as burdensome, 
including mandatory reporting and the use of descenders. Such situation 
is unlikely to improve unless and until spokesmen for the industry and 
for major angling organizations accept their responsibility to work 
with regulators to improve the conservation and management process, 
rather than standing outside the process while attempting to undercut 
it in an effort to increase anglers' short-term landings, as is 
currently the case.

    Question 3. Some argue that scientific uncertainty makes data 
unreliable or overly conservative. Can you please explain why it is 
important to manage for uncertainty, and why it is important to build 
in buffer room around catch limits and rebuilding timelines?

    Answer. Estimates of stock size, spawning potential, fishing 
mortality and other parameters critical to the management process 
inevitably include some degree of uncertainty, which is set out in the 
relevant scientific paper (e.g., ``We believe that the current spawning 
stock biomass for species `X' is 40,000 metric tons; there is a 95 
percent probability that such biomass is no lower than 35,800 mt and no 
higher than 43,200 mt''). From a biologist's perspective, such 
uncertainty doesn't make the data unreliable; however, the uncertainty 
must be considered when establishing management measures. Fishermen 
will often argue that uncertainty means that the actual size of a 
population may be higher than the point estimate used to estimate the 
biomass, and so regulations based on such point estimate are unduly 
conservative; however, in making such statements, they seem to forget 
that the error can be in either direction, and that it is just as 
likely that there are fewer fish in the population than the point 
estimate indicates. Thus, if a regional fishery management council 
establishes an annual catch limit precisely at the overfishing limit, 
and the point estimate actually overestimates the size of the stock, 
overfishing will occur and the stock could fail to recover, and even 
fall into decline. I saw this happen when I sat on the Mid-Atlantic 
Fishery Management Council from 2002-2005, as for most of that period, 
the Council routinely set the summer flounder catch limit right at the 
point estimate that had a 50 percent chance of preventing overfishing. 
For the first year or two, that worked, but because there was no 
allowance for scientific uncertainty, and because the model used to 
assess the stock was found to overestimate recruitment and 
underestimate fishing mortality, the species' recovery eventually 
stalled, and more conservative measures were needed. That illustrates 
why language included in Magnuson-Stevens during the 2006 
reauthorization, which prevents a regional fishery management council 
from setting an annual catch limit higher than ``the fishing level 
recommendations of its science and statistical committee or the peer 
review process'' is critically important; it assures that any annual 
catch limit will take account of scientific uncertainty, and be set far 
enough below the overfishing level to prevent overfishing from 
occurring.
    The same principle applies to rebuilding timelines or any other 
parameter; without adopting a buffer large enough to take uncertainty 
into account, managers make it less likely that the objectives of the 
fishery management plan will be realized. Fishermen often argue that 
the data is too uncertain to form the basis for restrictive 
regulations; in fact, the opposite is true. When data is highly 
uncertain or unavailable, the likelihood of inadvertently overfishing 
the stock is correspondingly high. Thus, more uncertain the data, the 
more conservative regulations need to be to avoid harming the stock and 
also to avoid harming the people who depend on healthy fish 
populations.
    3a. How does this protect stocks from being overfished?

    Answer. As mentioned in the response immediately above, uncertain 
data raises the risk of overfishing. The best way to avoid harm to the 
stock is to adopt management measures conservative enough to take full 
account of such scientific uncertainty.

    Question 4. Some suggest that the use of the ``best available 
data'' has severely restricted councils, and there is often contention 
with how stock assessments are conducted. However, we've seen in the 
cod fishery that the state managed assessments found the same results 
as NOAA Fisheries--there simply aren't enough fish. Despite this, many 
in the industry say otherwise. Would you say that it's advisable to 
mandate incorporation of any data source, including those that do not 
require a scientific assessment process, to make management decisions?

    Answer. The accuracy and quality of stock assessments is directly 
dependent upon the accuracy and quality of the data on which such 
assessments are based. Thus, it is of the utmost importance that all 
such data is statistically valid and collected using methodologies 
capable of passing rigorous peer review. Fishermen often question the 
validity of the data (or, at least, the validity of data showing that 
the population is at low levels; data that shows that fish are more 
abundant than expected, such as the 2008 assessment of Gulf of Maine 
cod--now known to be wrong--are rarely if ever questioned, but instead 
are enthusiastically accepted by fishermen willing and eager to 
increase their catch), arguing that scientists aren't sampling ``where 
the fish are'' and instead conduct random surveys that primarily sample 
places where they are no fish (e.g., samples taken during the National 
Marine Fisheries Services' northeast trawl surveys). Such criticism 
demonstrates a lack of understanding of how statistically valid surveys 
are made; random trawl tows, made in a consistent manner each year, 
create an abundance index that reliably reflects the state of the 
stock. Such criticism also ignores that fact that the most important 
data may not be the fish that are caught over the course of a trawl 
survey in the places where they remain, but instead the fish that are 
not caught over the course of a trawl survey in places where they 
should be and historically were. Even when a fish population has fallen 
very low, there will be places where the remnants of such population 
congregate and fish can be readily caught. New England cod, cited in 
the above question, are a good example of this phenomenon; when the 
population level falls, the remnants of the stock tend to school 
tightly together, and fishermen trawling through such aggregations can 
catch many fish in a very short time. Yet vast areas of bottom may hold 
very few, if any, cod at all, even though fish abounded there a few 
decades ago. It is this fact that the Commonwealth of Massachusetts' 
trawl survey, referred to in the question, has confirmed.
    Information provided by fishermen and other non-scientific sources, 
which is not collected pursuant to a statistically valid survey, should 
never be included in stock assessments. Such information is at best 
anecdotal, and reflects the fishermen's spatially and temporally 
limited perspective with respect to abundance. It reflects the 
fisherman's biases, and his/her propensity to fish in places where fish 
can be found; it in no way reflects a stock's abundance throughout its 
entire range, and it in no way reflects a stock's historical abundance. 
The latter can be particularly significant. When summer flounder were 
in the midst of their recovery a decade ago, critics of the management 
process constantly called (and sometimes still call) the biomass target 
``unrealistic,'' arguing that the population was ``the highest that it 
has been in 30 years.'' What was missing from their argument was the 
fact that the stock had been overfished for a very long time, and that 
it had not been truly abundant for more than three decades. We see the 
same thing today in the Gulf of Mexico red snapper fishery, where 
anglers claim that ``red snapper are more abundant than they have ever 
been.'' While there is no question that the red snapper rebuilding plan 
is working, the stock first fell into decline during the 1960s. An 
angler would have to have been fishing no less than 55 years ago to 
have experienced a healthy stock; today's stock levels may seem high 
when compared to the stock 15 years ago, when abundance was near all-
time lows, but only because few people fishing today remember what a 
truly abundant stock looks like. They may be ``more abundant than they 
have ever been'' during a complaining angler's lifetime, but that only 
demonstrates that such angler is too young to have experienced a 
healthy stock. That sort of ``shifting baseline'' increases the level 
of bias inherent in information provided by anglers.

    Thank you for requesting answers to the above questions. Please 
feel free to contact me with any other questions that you might have.

                                 ______
                                 

    Mr. Lamborn. OK. And now we will hear from Mr. Martin for 5 
minutes.

     STATEMENT OF SEAN MARTIN, PRESIDENT, HAWAII LONGLINE 
                 ASSOCIATION, HONOLULU, HAWAII

    Mr. Martin. Good afternoon, Mr. Chair, and aloha, members 
of the Committee. My name is Sean Martin. I am President of the 
Hawaii Longline Association, which represents the interests of 
the Hawaii-based commercial longline fishery. I thank the 
Committee for inviting me to testify on the successes and 
challenges of the MSA.
    Over 140 vessels participate in the Hawaii longline 
fishery. We annually land around $100 million in dockside value 
of tuna and other species. The fishery supports 2,500 jobs, and 
accounts for several hundred million dollars in the seafood 
industry. The longline fishery is the number-one domestic food 
supplying industry in Hawaii. We land fresh fish, and the Port 
of Honolulu ranks within the top 10 fishing ports in the United 
States for the last three decades. We operate in a very 
competitive arena, both for the fishing grounds in 
international waters, and for the U.S. domestic market.
    The recent marine monument designations under the 
Antiquities Act prohibit us from fishing in more than half of 
the U.S. EEZs in the Western Pacific Region. Access to the high 
seas is being challenged by United Nations initiatives, as 
well. Closure of the U.S. waters and the high seas reduces our 
ability to compete, and increases the vulnerability of our 
markets to foreign takeover.
    The MSA is a success. Overfished stocks have been rebuilt 
and few stocks are now overfished. Management measures are 
precautionary and based on the best-available science. The 
fishery Councils provide regional expertise in utilizing an 
effective bottom-up decision-making process that includes the 
fishing industry. I would like to highlight three key issues.
    First, the MSA is being circumvented by other statutes and 
authorities. This includes the Endangered Species Act, the 
Marine Mammal Protection Act, Migratory Bird Treaty Act, 
National Marine Sanctuaries Act, and the Antiquities Act. These 
authorities do not require the same level of public 
consultation and transparency as the MSA.
    Fisheries should be managed primarily through Fishery 
Councils under MSA. This ensures a transparent, public, 
science-based process which allows the fishing industry and 
stakeholders to be consulted. Impacts to fishery-dependent 
communities are considered, and it prevents regulations that 
might otherwise be duplicative, unenforceable, or 
contradictory.
    Past administrations have established huge national marine 
monuments in the Pacific, totaling more than 760 million acres 
of U.S. waters under the Antiquities Act. Marine monuments have 
been designated around Hawaii, American Samoa, Guam, Northern 
Marianas Islands, and the remote Pacific island areas. All 
commercial fishing is prohibited in monument waters. In our 
view, prohibition of fishing in these pristine waters was 
unnecessary and harmful to U.S. fisheries. Fisheries operating 
in these areas were sustainably managed for decades under MSA 
and the Western Pacific Council.
    HLA recommends that the MSA be amended to assure that the 
MSA process is the only process by which regulations affecting 
U.S. fisheries can be adopted.
    Second, in 2016, Congress passed legislation that directs 
the Secretaries of Commerce and State to prevent U.S. tuna 
fisheries operating in the Central and Western Pacific from 
being disadvantaged, relative to other fisheries in the 
regions. The law is intended to level the playing field between 
U.S. and foreign fisheries. U.S. fisheries managed under MSA 
are sustainable, yet often marginalized within international 
fisheries commissions.
    U.S. fishing interests require strong negotiators to 
advocate and support U.S. fisheries. While our fleet has been 
limited to 164 permits since 1991, some other nations have been 
expanding their fleets dramatically, and are continuing to do 
so.
    The U.S. bigeye tuna catch limit has been cut over recent 
years, while other nations' catches threaten to supply U.S. 
markets with poorly monitored seafood. HLA recommends that MSA 
be amended to ensure that U.S. fisheries are not disadvantaged 
with regard to internationally imposed catch or effort limits.
    And last, HLA supports the Regional Councils' efforts to 
achieve a more streamlined process for regulatory action. A 
fisheries management plan document contains a full discussion 
of impacts on fisheries, fish stocks, and associated species, 
including endangered species.
    The National Environmental Policy Act requires duplicative 
evaluation. The analytical duplication between the MSA and 
National Environmental Policy Act is unnecessary, delays 
actions, and has a high cost. The Hawaii Longline Association 
recommends amending the MSA to authorize a single analytical 
document for any proposed regulatory action. This will 
streamline the process, eliminate duplication, and allow for 
more meaningful industry input.
    Thank you again for the opportunity to provide our views on 
the successes and challenges of MSA.

    [The prepared statement of Mr. Martin follows:]
     Prepared Statement of Sean Martin, President, Hawaii Longline 
                     Association, Honolulu, Hawaii
    My name is Sean Martin. I am President of the Hawaii Longline 
Association (HLA) in Honolulu, Hawaii. HLA is a nonprofit organization 
representing and advancing the interests of the Hawaii-based commercial 
longline fisheries in fishery conservation and management decisions. I 
thank the Committee for inviting me to testify on the successes and 
challenges of the Magnuson-Stevens Fishery Conservation and Management 
Act (MSA).
    The Hawaii longline fishery consists of 140 active vessels. We land 
around $100 million (dockside value) worth of tuna (bigeye and 
yellowfin) and tuna-like fish (swordfish, marlins, mahi-mahi, opah, 
wahoo) annually, supporting 2,500 jobs and producing several hundred 
million dollars in the associated seafood industry. The fishery 
provides jobs on fishing vessels, on the docks, at suppliers, and in 
the fish wholesale and distributor markets. We are the largest food 
producing industry in Hawaii, and we supply almost all the fresh tuna 
available in Hawaii. We operate in a very competitive arena, both for 
fishing grounds in international waters and for the U.S. domestic 
market. The recent marine monument designations established under the 
Antiquities Act prohibits us from fishing in 51 percent of the U.S. 
Exclusive Economic Zone in the Western Pacific region. Access to the 
high seas is also being challenged by recent United Nations 
initiatives. Closure of U.S. waters and the high seas hurts us, 
reducing our ability to compete and increasing the vulnerability of our 
markets to foreign takeover.
    The MSA is a success and should be the principal source of 
authority for management of U.S. fisheries. Overfished stocks have been 
rebuilt, and few stocks are now overfished. Management measures are 
precautionary and based on the best scientific information available. 
The regional fishery management councils provide regional fishing 
expertise and utilize an effective bottom-up decision-making process 
that includes the fishing industry. The MSA also requires the 
evaluation of impacts on fish stocks as well as fishermen and fishing 
communities.
    HLA has worked with the National Marine Fisheries Service and the 
Western Pacific Regional Fishery Management Council for over 25 years. 
Our intent has been to ensure that sound fishery data would be used in 
stock assessments and that this would be joined with solid market and 
fishing industry information so the Council would have a good basis for 
establishing regulations. We have collaborated on research into such 
areas as gear modifications to protect sea turtles, seabirds, and 
marine mammals. We are proud of our efforts and the Hawaii longline 
fishery is an iconic, internationally recognized model fishery. It is 
the most highly monitored, strictly regulated longline fishery in the 
Pacific.

    HLA provides the following recommendations with respect to the MSA.

    1. Manage U.S. ocean fisheries through MSA processes. In recent 
years, the management of fisheries covered by the MSA has been 
circumvented by other statutes and authorities. This includes the 
Endangered Species Act, Marine Mammal Protection Act, Migratory Bird 
Treaty Act, National Marine Sanctuaries Act, and the Antiquities Act. 
These Acts do not require the same level of public consultation and 
transparency as compared to the MSA. For our fishery, the biggest gains 
in protection have been achieved through the Council process. For 
example, sea turtle and seabird interactions were reduced by 90 percent 
as a result of industry cooperative research and Council developed 
regulations. In HLA's view, fisheries should be managed primarily 
through the fishery management councils under the MSA. This ensures a 
transparent, public, and science-based process which allows the fishing 
industry and stakeholders to be consulted. It provides that analyses of 
impacts to fishery dependent communities are considered, and prevents 
regulations that might otherwise be duplicative, unenforceable, or 
contradictory.
    Past administrations have established huge national marine 
monuments in the Pacific totaling more than 760 million acres of U.S. 
waters under the Antiquities Act of 1906. In our view, marine monument 
designations were politically motivated and addressed non-existing 
problems. Fisheries operating in these areas were sustainably managed 
for several decades under the MSA and the Western Pacific Council. 
There was no serious attempt to work with the fishing industry in the 
designations of these marine monuments. Public input was minimal. See 
attached map identifying U.S. waters closed to commercial fisheries.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    HLA recommends that the MSA be amended to ensure that the MSA 
process is the only process by which regulations affecting U.S. 
fisheries can be adopted.

    2. Strengthen support for U.S. fisheries in the international 
arena. In 2016, Congress enacted ``Amendments to the Western and 
Central Pacific Fisheries Convention Implementation Act'' (16 U.S.C. 
6901 et seq.). The amendments direct the Secretaries of Commerce and 
State to seek to minimize any disadvantage to U.S. fisheries relative 
to other fisheries of the region and to maximize U.S. fisheries' 
harvest of fish in the Convention Area. The amendments are intended to 
level the playing field between U.S. and foreign fisheries. U.S. 
fisheries managed under the MSA are sustainable, yet they are often 
disadvantaged within international fisheries commissions. U.S. fishing 
interests require strong U.S. government negotiators to advocate and 
support U.S. fisheries. For example, the Hawaii longline bigeye quota 
has been reduced to 3,345 metric tonnes (mt), while quotas for other 
countries have not been reduced (e.g. Indonesia). The WCPFC-imposed 
quotas are based on historical catch and do not match current fishing 
capacity. For example, Japan has a bigeye quota of nearly 17,000 mt, 
but only catches around 11,000 mt. China has been expanding its 
longline fleet from about 100 vessels in 2001 to over 430 vessels in 
2015, and has a bigeye quota of around 7,000 mt. Our fleet has been 
limited to 164 permits since 1991. China is continuing to expand its 
longline fisheries and supplying U.S. markets with poorly monitored 
seafood.

    HLA recommends that the MSA be amended to ensure that U.S. 
fisheries are not disadvantaged with regards to internationally imposed 
catch or effort limits.

    3. Simplify the MSA regulatory process. HLA supports the regional 
councils' efforts to achieve a more streamlined process for approval of 
regulatory actions. A fishery management plan document from a regional 
council typically contains a full discussion of impacts on the 
fisheries, on the fish stocks, and on associated species (e.g., 
endangered species, marine mammals, seabirds, etc.). The National 
Environmental Policy Act requires duplicative evaluation and 
incongruent public comment periods. The analytical duplication between 
the MSA and NEPA is unnecessary, delays needed actions, has a high 
cost, and provides more avenues for legal challenges and delays on non-
MSA grounds. Also, it is often very confusing to the industry with 
regards to timing and where we should apply our input in the process.

    HLA recommends amending the MSA to authorize a single analytical 
document for any proposed regulatory action that will streamline the 
process, eliminate duplication, and allow for more meaningful industry 
input.

    Thank you again for the opportunity to provide our views on the 
successes and challenges of the MSA.

                                 ______
                                 

    Mr. Lamborn. OK, thank you all for being here and for your 
testimony. At this point we will begin our questions for the 
witnesses. To allow all of our Members to participate, and to 
hear from all of the witnesses, under Committee Rule 3(d), 
Members are limited to 5 minutes for their questions.
    I will yield the first opportunity to ask questions to the 
Full Committee Chairman, Mr. Bishop of Utah.
    Mr. Bishop. Thank you, Mr. Lamborn, and I apologize to the 
Committee, as well as the witnesses, that I have to go to 
another meeting in a few minutes. I apologize for that.
    I thank you for being here. In the short time that I have 
been Chairman of the Committee, I think I have been to each of 
the regions you represent, so in the Northeast and in Florida, 
as well as in the Pacific.
    I have heard many of the same complaints that you have 
highlighted today: simply, poor data to justify fishing 
management decisions, whether it be for commercial or 
recreational fishing. There simply seems to be a lack of 
scientific justification either for the data or even the 
methodology by which the data was collected. And I think you 
have identified that in both your written and oral testimony. 
Access has simply been impacted.
    Let me start with Mr. Martin, if I could. Thank you for 
being here and traveling the distance that you came here. 
Access seems to be impacted, not just in marine protected 
areas, but also because of the Antiquities Act, one of my 
favorite pieces of legislation.
    Could I ask you about the abuses of the Antiquities Act? 
How critical is it to the economy of Hawaii and our Pacific 
territories that federally managed fisheries be managed by the 
principles of Magnuson-Stevens, and not by the impositions of 
the marine monuments and sanctuaries?
    Mr. Martin. Thank you, Mr. Bishop. I do think that the 
importance of access to all of the waters that are available to 
us are important to U.S. fishermen. If you restrict access in 
one area, you oftentimes are just focusing the access, or 
focusing the effort on another area.
    So, having access, particularly the Northwest Hawaiian 
Islands, which is the largest marine-protected area, or 
national monument in the United States, is very important to 
the longline fishery in Hawaii. Somewhere between 8 and 12 
percent of the catch takes place in that particular area, and 
of course it varies from year to year. So, I do think that we 
are very focused on sustainable fishing, but sustainable 
fishing throughout a broad range.
    Mr. Bishop. OK. Mr. Kaelin, you have a new monument over in 
your area, too. Do you agree with what Mr. Martin just said?
    Mr. Kaelin. Yes, sir, I do. I do, Mr. Bishop, and I want to 
thank you for the work that you have done. The Northeast 
Canyons and Seamounts designation was contrary to the approach 
that the Mid-Atlantic Council had taken to protect deep-sea 
corals, and also the approach that the New England Council was 
pursuing to do the same thing, and freeze the footprint of 
fishing.
    The new monument designation set a shoreward boundary that 
needlessly eliminates commercial fishing with no biological 
benefit. So, we are absolutely opposed to that process, and 
would like to see those boundaries changed.
    Mr. Bishop. Thank you. And you guys had a compromise that 
could have worked and should have worked for everybody. I 
appreciate that.
    Mr. Martin, I would go back to you. Do you see any 
scientific justification to support the Pacific Monument 
expansion?
    Mr. Martin. No, we don't. I don't think----
    Mr. Bishop. That is good enough. You won me over with that 
answer there.
    Mr. Martin. OK.
    [Laughter.]
    Mr. Bishop. But that also means, were there existing 
protections under Magnuson-Stevens?
    Mr. Martin. Yes, there were. In the 1990s, through Council 
action, there were areas that were set aside and prohibited 
from particularly longline fishing within those areas because 
of concerns about habitat and protective species within the 
area.
    Mr. Bishop. Look, I appreciate that. Mr. Wiley, it is good 
to have you here again. It has been a while. I think it has 
been a couple of years since the first time we saw you and you 
were talking about red snapper. I believe you are still talking 
about red snapper, and I think there are going to be some 
questions about red snapper here again today.
    I am appreciative of what Secretary Ross did in his action 
to give some relief, but that was, at best, a Band-Aid. We need 
to have a longer-term solution to that.
    Can I just ask you--if you compare the Gulf of Mexico and 
South Atlantic, would you say that the issues are caused in 
both those places by a systemic problems with Federal fisheries 
management?
    Mr. Wiley. Yes, sir, I would. I think the fact that we 
cannot provide access as the fishery grows and rebuilds is the 
fundamental problem, and that is part of the Act.
    Mr. Bishop. Thank you for that. Under my imposed self 
rules, I only have 44 seconds left, so I won't start the other 
question here, but I want to thank you. Once again, thank you 
all for being here. It is extremely important. This is an 
important piece of legislation we need to move. Don Young has 
to get his act together and get this thing passed.
    Thank you for holding the hearing, and I appreciate the 
courtesy of allowing me to go first so I can go to my next 
meeting.
    Mr. Lamborn. Thank you, Mr. Chairman. We will now hear from 
Representative Huffman of California.
    Mr. Huffman. Thank you, Mr. Chairman.
    Mr. Martin, in terms of the impact of the monument 
designation in your region, at least so far your industry has 
been having no trouble catching fish. Is that fair to say?
    Mr. Martin. No trouble in catching fish, no. That is 
correct.
    Mr. Huffman. I mean the numbers I have seen--well, 
certainly last year was a banner year. The quota was reached by 
July 22. This year, NOAA shows that around 80 percent of the 
quota had been used as of July 11, and that is post-monument 
designation. I just wanted to point that out.
    Mr. Wiley, you spoke about something we hear pretty 
regularly, and that is that recreational fishermen feel that 
the data collected on red snapper and other highly sought-after 
species is not good enough or timely enough to manage 
fisheries. And I wonder if there might not be something we can 
agree on here.
    Do you support additional funding from Congress for NOAA 
and the interstate fishery commissions to conduct more fishery 
independent data collection and more frequent stock 
assessments?
    Mr. Wiley. If it were steered properly to address the 
shortfalls, yes, sir, we would.
    Mr. Huffman. OK. I think that would be a good idea. 
Commercial fishermen are required by law, of course, to report 
their catches and discards, which is the reason why we have 
better data for commercial fisheries than we do on the 
recreational side. But I want to ask if you think there is more 
that we can do on the recreational side to try to answer this 
data challenge.
    Do you think that mandatory reporting of recreational 
landings and discards, for example, would be a good idea?
    Mr. Wiley. Well, I would not go to mandatory before we 
fully worked with the recreational community to go for tools 
that we already are putting in play, like using cell phone 
applications for reporting. Anglers are already reporting dead 
discards for our snook harvest that feeds into our models and 
gives us great information. Very, very timely.
    Mr. Huffman. OK. That is a form of reporting, though. But 
you would prefer to give that a chance before making it 
mandatory?
    Mr. Wiley. Sure I would.
    Mr. Huffman. Mr. Witek, what about you? Do you think 
recreational anglers can do more to see better data, more 
robust data, so we can manage these fisheries?
    Mr. Witek. I think they should. But, to date, the success 
has not been great. There is now mandatory reporting on bluefin 
tuna, and I spoke to someone in NMFS' highly migratory species 
unit a while ago and only about 20 percent of anglers who catch 
bluefin tuna actually report their catch, even though it is 
mandatory reporting.
    In Alabama, they instituted mandatory red snapper 
reporting. Yet, there was an article--I believe it was in the 
Tuscaloosa Times a week or two ago--that said during Alabama's 
state season this year they estimate only 7 percent of anglers 
actually complied with the reporting requirement.
    So, yes, we should. But we have to find a way to put some 
teeth in the requirement.
    Mr. Huffman. We heard from one of the witnesses about the 
very limited number of days on the Atlantic for red snapper. 
And I am hoping maybe you can correct me if I am wrong, but I 
know on the Pacific side one way we have been able to allow 
more fishing is to require recreational anglers to use 
descender devices, so that if they catch a fish that we are 
trying to protect, that we don't want them to keep, that fish 
can actually survive being returned back in to the water.
    Yet, I understand that that is not used on the Atlantic 
side. Is that the kind of thing that the recreational fishing 
community can do, so that we cannot just answer this data 
problem, but also give them more days on the water?
    Mr. Witek. Yes, efforts to avoid barotrauma would be a very 
good idea, descenders or other devices.
    Actually, some members of the recreational fishing industry 
have offered to make such devices available. But to date they 
are not used often enough.
    Mr. Huffman. OK. Mr. Witek, while I have you, I want to ask 
you about the decision by Secretary Ross to extend the private 
boat recreational red snapper season in the Gulf of Mexico well 
beyond what some, at least, feel is a sustainable level. And 
one of the witnesses praised that decision.
    This decision, of course, over-rides the science-based 
Fishery Management Council process. It is believed by many that 
it will result in a harvest exceeding the science-based annual 
catch limit. We know that it is being challenged in court, and 
I have heard some pretty credible assessments that that 
challenge is likely to be successful.
    So, we could have long delays in rebuilding this 
economically valuable fish stock. I am wondering if you would 
speak to why you believe--if you believe--that this action is 
damaging.
    Mr. Lamborn. I am afraid we have run out of time.
    Mr. Huffman. To be continued.
    Mr. Lamborn. I would now like to recognize, with unanimous 
consent, out of order, Representative Hice, who has a conflict 
in a few minutes.
    Dr. Hice. Thank you very much, Mr. Chairman. I appreciate 
you holding this hearing. There are a lot of Georgians who go 
to the Gulf for recreational fishing.
    I also, Mr. Chairman, want to thank you for having Mr. 
Scott here. I don't know that there is anyone who is any more 
informed in Congress on this issue, and more passionate about 
it, so I welcome him and his work on this area, as well.
    Mr. Wiley, let me just go to you. Mr. Witek's testimony 
talks about alternative management measures, and that they are 
weakening MSA. Can you give a couple of examples of alternative 
measurements?
    Mr. Wiley. Well, yes, sir. In Florida, our near-shore 
fisheries like red drum, spotted sea trout, snook, we manage 
more to a biomass scheme, where we actually use spawning 
potential ratios. We monitor closely, we do 3-year stock 
assessments, use solid science, and we also--the key to really 
making it work is we stay in tune with the anglers. We let 
anglers help provide data voluntarily to help us manage 
particular issues like discards and discard mortality.
    We also creatively use slot limits, size limits, season 
limits. But the thing is we can move quickly. We are nimble, we 
can adjust, and we can manage the fishery very much in tune 
with what it will provide to be able to optimize fishing 
opportunity and access.
    Dr. Hice. Do any of these alternative management measures--
do any of them give a blank check to recreational fishermen, as 
it relates to the number of fish they can catch?
    Mr. Wiley. No, sir. Absolutely not.
    Dr. Hice. OK. Now, the quotas, explain to me how the quotas 
are divvied out. Who has them? Who gives them away? How does 
that process work?
    Mr. Wiley. The quotas with regard to, like, the red snapper 
fishery?
    Dr. Hice. Right, mm-hmm.
    Mr. Wiley. Yes, sir. That is through the Council process, 
and there is an allocation process based on analysis of 
historic landings and such. So, it is partitioned out or 
allocated to the commercial sector and then, now, through the 
Council, are further allocated to the charter-for-hire sector 
and then the private boat recreational sector.
    Dr. Hice. OK. So, the charter-for-hire or whatever, who is 
giving it to those individuals? In other words, are the 
commercial fishermen--who gets them and then actually divvies 
them out?
    Mr. Wiley. Well, it is done through NOAA fisheries. I mean 
it is actually, the actions are taken through NOAA fisheries' 
actions, at the recommendation of the Councils.
    Dr. Hice. I guess what I am getting to, from my 
understanding, are there fisheries, there used to be 
professional fishermen, whatever the case may be, you have all 
these quotas and they will sell a certain part to charter 
fishermen, or whatever.
    Mr. Wiley. Well, those are designed, given the fishery. But 
in red snapper, for example, the commercial piece, those 
fishermen were allocated a share of the fishery, and then that 
fisherman that was allocated that share can then sub-lease or 
sell their interest in those shares, or access to those 
shares----
    Dr. Hice. And that is a common practice?
    Mr. Wiley. I believe it is a fairly common practice. Yes, 
sir.
    Dr. Hice. OK. So, my understanding is many of those people 
are now out of the fishing business, themselves. They make 
money by selling certain quotas to other individuals.
    Mr. Wiley. I have read about that, but I don't have 
personal knowledge of any individual that--whether they are 
still in or out of the business. But I do know that they 
outsource or lease out access to their shares.
    Dr. Hice. Is that something that would be worth monitoring, 
so that we know who is doing that? Because there is, obviously, 
an issue there. There is a problem there. If a person is not 
even fishing, all they are doing is becoming a broker for a 
certain quota, that is not the way the system was designed, was 
it?
    Mr. Wiley. Well, I don't think that is the way most people 
want to see the system work, many people. But I do think it is 
something worth monitoring and watching, because I know it has 
created a lot of concern and a lot of feeling that fisheries 
just----
    Dr. Hice. I would agree, because here is the deal--my time 
is about to run up--if you are a fisherman, you are the one 
that wants the quota. And if you are not fishing, but you are 
just a supplier of all this, and now you are going to sell them 
and you are going to make, potentially, millions of dollars 
selling quotas, and you are not even fishing, yourself, you 
have become a broker. That is not the way this system was 
designed. And that is an enormous weakness and a flaw.
    Mr. Wiley. Yes, sir.
    Dr. Hice. OK. I would want any clarification on that. Thank 
you very much.
    Mr. Lamborn. OK, I will now recognize myself for 5 minutes.
    Mr. Kaelin, a couple questions for you. Your testimony 
mentions multiple times this notion of best-available science, 
and how it is required under law to be used to justify Federal 
fishery management decisions. Is the Federal Government using 
the best-available science today in all of their management 
decisions?
    Mr. Kaelin. Thank you, Mr. Chairman. In all of the 
management decisions? That could be arguable. But I think, to 
the extent the data exists, the government does do a pretty 
good job of using the best-available science. And I think our 
position is that we can improve on that science dramatically by 
things like using industry-based platforms to do auxiliary 
surveys, which Congressman Young's bill refers to.
    I think it is a matter of nuance. I think additional 
flexibility around many of the elements in the bill will help 
create better scientific information and allow for better 
decision making.
    I do think the processes work. When I started dragging in 
1972, there were no rules. We operated against the foreign 
fleets. And we have made a tremendous amount of progress. So, 
please don't think that our comments in support of changes and 
targeted reform are contrary to the purposes of the Act. We 
strongly support sustainable fisheries, hard caps, and good 
enforcement. Our point is science can be improved dramatically.
    And I think if we work with the commercial and the 
recreational fishermen to develop the science that is used in 
management, we will also get more buy-in for the outcomes of 
the management process.
    I think the science center in New England is doing a 
particularly good job, honestly, in trying to move us ahead and 
be flexible within the constraints of the law.
    Mr. Lamborn. OK. What about scientific uncertainty? Does 
that factor in here?
    Mr. Kaelin. Scientific uncertainty is killing us. It really 
is. I wish I took statistics when I was in school, I never did, 
but the error bars are like this. And all the decisions are 
being made down at the lower part of the error bars, Mr. 
Chairman.
    Mr. Lamborn. OK.
    Mr. Kaelin. There is so much room for improvement there. 
And things like stretching out an ACL over a 3-year period, the 
National Standard One guidelines allow a softening of the blow 
of a cut-to-go to be used over 3 years. I think you are 
codifying some of that in the bill. These are the kinds of 
things, I think, that will give us more flexibility.
    We don't want to throw the bill away. We are not about 
destroying the Magnuson Act, but there absolutely are a number 
of things that could be done to give the SSCs and the Councils 
more flexibility in making the decision.
    And the scientific uncertainty is absolutely killing us.
    Mr. Lamborn. OK, thank you. That indicates that we need to 
be passing this legislation. At least that is what I read into 
all this.
    Now, Mr. Wiley, you and Mr. Kaelin indicated in your 
testimony that the 2006 reauthorization of the MSA may have 
created more problems than solutions for Federal fisheries 
managers. Can you elaborate on that, please?
    Mr. Wiley. Well, the main thing that changed there were the 
annual catch limits, really restrictive annual catch limits 
that were applied wholesale over all the recreational programs. 
It works well on the commercial side, but on the recreational 
it just, again, is not fitting well. And the tools we have to 
manage to annual catch limits are not working. We are living 
proof of that in Florida.
    Mr. Lamborn. Does H.R. 200 help the situation?
    Mr. Wiley. It sure does. We see a lot of things in H.R. 200 
that would be very helpful.
    Mr. Lamborn. And last, Mr. Wiley, changing the subject, 
domestic shark fisheries are sustainably managed by Federal 
fishery managers. The United States ranks eighth in the world 
for shark exports, and Florida ranks second in the United 
States for shark landings. And there has been legislation, H.R. 
1456, that would ban the sale of shark fins in the United 
States.
    Does the Florida Fish and Wildlife Commission and the state 
of Florida support such legislation? Why or why not?
    Mr. Wiley. My agency, the Florida Fish and Wildlife 
Conservation Commission, does not support that legislation, 
because we believe we have sufficient laws in place that 
provide for sustainable shark fishing. This law would hinder 
legitimate, sustainable shark fishing in the state, and we 
already have laws in Federal and state waters that prohibit 
landing sharks that have been finned, prohibit shark finning. 
You have to land the sharks whole. And we feel like the laws 
are very much sufficient for that.
    Mr. Lamborn. OK, thank you. And thank you all for being 
here once again. I now recognize the Vice Chairman, Mr. Webster 
of Florida.
    Mr. Webster. Thank you, Mr. Chair. Florida is known as the 
fishing capital of the world. And, Mr. Wiley, I would credit 
you and your agency for doing a fantastic job in promoting the 
state's fisheries resources and also doing a great job of 
managing. We really appreciate it.
    The state is not subject to Magnuson-Stevens Act, so you 
still do a fantastic job. You talked a little bit about it. Can 
you describe, kind of in layman's terms, how you are able to, 
without using standard procedure like annual catch limits, and 
so forth, how you are still able to keep healthy fisheries 
resources, and not necessarily do that? How do you do it?
    Mr. Wiley. Well, it would take a while to give you all the 
background. I first want to say thank you for your kind words, 
but also your leadership in Florida at the state level has 
always been helpful and supportive. So, thank you. You have 
been a part of our story.
    One of the fundamental things we do, and I mentioned it 
earlier, is we work closely with the fishermen in the 
recreational and the commercial community. We have strong 
relationships and strong bonds. We can be very transparent, we 
are very transparent, and we listen. And we can move quickly 
and be nimble to adjust.
    For example, just a few weeks ago we had a charter 
fisherman coming in and saying we are seeing trouble with the 
cobia fishery. That is a federally managed fishery, but cobia 
is important to our charter fishery. And they were seeing their 
catches go down. Well, there was no indication at the Federal 
level that was a problem.
    So, we are sitting down and working with them and having 
workshops to contemplate whether we need to implement some 
restrictions in state waters. That is just an example of how we 
listen, we have relationships, we work hard to reach out and 
have a good trust with our stakeholders, and work on problems 
on a daily basis.
    Mr. Webster. You mentioned a little bit about using 
smartphones and using that with the recreational anglers to do 
your survey on what is happening in your waters and what is 
being caught, and so forth. Can you say a little bit more about 
that? How does that work?
    Mr. Wiley. Yes, sir. I love it, we call it citizen science, 
and it is very valid. You have to design a program that allows 
our anglers to input the information.
    And now, with technology, iPhones and things like that, you 
can actually use an application, download it, and you can 
record and it will submit then right into our scientific data, 
and can be used in our modeling, where we are starting to see 
it used in other states. There is an iSnapper and an iSnook, 
and there are all these ways that we can get good information 
from anglers that is very valid and very helpful with regard to 
assessing stocks, and looking at those measures. So, we 
appreciate that.
    We also, just within the last 2 years, implemented a Gulf 
Reef fish survey, which is our own survey, particularly to get 
the snapper and grouper. It really narrows down the universe of 
people. We know who is fishing, and we know who to sample and 
who to send surveys to. So, we are really working hard to 
refine our tools all the time, to try to improve the data, 
improve the science, and make it more helpful.
    Mr. Webster. Once they sort of chime in the first time, 
then you have their information and you communicate with them 
after that?
    Mr. Wiley. Yes, sir. They just sign up for the app, and 
then they are plugged in.
    Mr. Webster. Is it your app?
    Mr. Wiley. Yes, sir. Well, no. Actually, it was designed by 
an individual entrepreneur and some of the fishing community 
worked together to design it. We just looked at it, essentially 
certified it, and said this will work, and we figured out ways 
to allow it to plug right in to help our data.
    Mr. Webster. Thanks for being here.
    Mr. Wiley. Thank you.
    Mr. Webster. I yield back.
    Mr. Lamborn. Mr. Young of Alaska.
    Mr. Young. Thank you, Mr. Chairman. May I make this clear? 
You all like the flexibility in H.R. 200, right? Raise your 
hands.
    All right, I figured that out right quick, because that was 
the bone of contention, that flexibility hurt the Act itself. 
And I personally watched where, because of the Federal 
management, some of the science was not--by the way, the worst 
thing that has ever happened to this Congress is best science 
available. The best science available may not be any science at 
all, and that is what hurts us.
    I would like to see NOAA--and I am trying to figure out how 
we get more money into the private or industry--the scientific 
community could verify what is being told. The deal in the Gulf 
now, and the red snapper, is really NOAA. I think it has done a 
fair job, but the people running it won't convey that science 
to the limitation or the catch cap on red snapper.
    And, by the way, I will not say anything other than Mr. 
Scott and Mr. Graves are really the ones that led the charge 
against that 33 days or 39 days for additional recreational 
fishermen. And I give them credit for it.
    I want to solve the problem of the red snapper, if I can, 
in this legislation, without necessarily picking out on the red 
snapper.
    The Chairman brought up the shark fin program, and I think 
the idea of throwing away edible product is a criminal act. If 
you are going to catch a fish, use everything but the squeal, 
that is the appropriate way to do it. And that is the way pig 
farmers make a living, by the way, and we are doing a good job 
on our salmon, now. We are using everything on that fish.
    What if we were to extend the state land mass mileage out 
to 12 miles, as it was before the Magnuson-Stevens Act? A lot 
of people don't remember that. It used to be 12 miles. And to 
get to 200 miles managed federally, the states gave up 9 miles. 
What if we put it out? Would that help the species at all?
    Anybody want to talk about that? What would it do? Anybody 
have any idea?
    Mr. Wiley. If I may, Mr. Chairman?
    Mr. Young. Yes.
    Mr. Wiley. I think we should talk about looking at that as 
a creative tool. I am not sure 13 miles would be enough to make 
a big difference, but that concept sure has merit.
    Mr. Young. Well, mainly for fish management, because 
someone is going to say, well, you know, there are resources 
out there--fish, and we don't want to give the ownership--just 
management.
    What about depth? I think the 30 or 35 fathoms, the state 
could control out that far. What would that do?
    Mr. Kaelin. Mr. Chairman--or Mr. Young, excuse me.
    Mr. Young. I am a Chairman. Once a Chairman, you are always 
a Chairman.
    Mr. Kaelin. Always a Chairman.
    [Laughter.]
    Mr. Young. And, by the way, there is another side. Once an 
SOB, always an SOB.
    [Laughter.]
    Mr. Kaelin. Well----
    Mr. Young. All right, go ahead.
    Mr. Kaelin. Yes, thank you. I am not sure that we are in 
favor of extended state jurisdiction on the Atlantic Coast. We 
have a very wide Continental Shelf.
    But my experience with the Commission and the state-by-
state management is it has been a tremendous impediment to 
effective coastwide management of resources that do not respect 
the state jurisdictions. So, I am not sure we are ready to see 
state extra territorial extensions in our region. I think we 
are better off with coastwide catches and landing restrictions 
that are maybe agreed on universally, but we would have to 
think a little bit more about the extension of state----
    Mr. Young. Again, we are looking for trying to solve this 
problem about sustainable yield. That was the whole concept of 
the Magnuson-Stevens Act. And, by the way, again, it started in 
the House. They are just Senators.
    Mr. Martin, you brought up a couple things that I did not 
even think about. The interference of other agencies on the 
maintenance and management of fisheries, would it be better to 
have all the fisheries under the Magnuson-Stevens Act, then the 
other agencies could not get involved in it?
    Mr. Martin. Well, certainly, I think that streamlining the 
process by having MSA be the focal Act for fisheries management 
would be a preferred direction, as far as our Association is 
concerned.
    Mr. Young. One thing, I agree on the monuments. I have 
never understood why they put--fishing does not hurt the 
monuments, Mr. Chairman. We might want to look at rewriting 
only monuments in the ocean can prohibit mineral exploration, 
that type of thing, but allow fishing, because fishing does not 
have anything to do with it. I just want to think about that. 
Thank you, Mr. Chairman, I appreciate it.
    Mr. Lamborn. Thank you. I am glad you got that title right.
    OK, now I am going to ask unanimous consent because Mr. 
Huffman does not have a colleague to ask time to yield to him 
for, so unanimous consent for 2 minutes for Mr. Huffman to 
finish his line of questioning.
    No, objection? So ordered.
    Mr. Huffman. I appreciate that, Mr. Chairman. It is lonely 
over here on this side of the aisle. So, I was just asking Mr. 
Witek what he thought about this decision by the Secretary to 
extend the recreational fishing periods. We talked about the 
Gulf red snapper, but there was also a similar action taken 
with respect to summer flounder.
    I would like to ask your thoughts, sir, about the longer-
term consequences of those decisions.
    Mr. Witek. If I could, I would address summer flounder 
first, because that is my local fishery. And basically, I 
believe that the decision has done very serious harm to the 
inter-jurisdictional cooperative management of inshore 
fisheries on the East Coast.
    For many years, the Atlantic States Marine Fisheries 
Commission could enforce its fishery management plans by the 
threat of going to the Commerce Department and having a 
moratorium imposed on non-compliant states. It operated on a 
carrot-and-stick principle, the carrot being restored 
fisheries, the stick being the moratorium.
    The Secretary's decision has taken the stick away. And 
right now, last night, I attended a New York State Marine 
Resources Advisory Council meeting, and the Council was already 
asking the DEC, ``Can we go out of compliance with two 
different management plans?'' Because the threat is no longer 
there, they are no longer afraid of the moratorium.
    Mr. Huffman. So, now everyone is going to want a special 
pass from the Secretary?
    Mr. Witek. That is correct. I have heard of other states 
already talking about looking for a pass in the striped bass 
fishery in the Chesapeake Bay, for example.
    If I could answer quickly on the red snapper, I think that 
decision could very well be the death knell to rational 
management of red snapper in the Gulf Coast. Right now the 
overfishing will be serious enough, if predictions I have seen 
work out, as much as 7 million pounds of red snapper 
overfishing. That is going to be deducted from next year's 
Federal fisheries quota, which will basically mean there will 
be no Federal fishery season. Yet the state fisheries will 
remain open, so they will overfish again against the Federal 
quota, creating a death spiral that I see no way to get out of.
    Now, the Gulf Council may have a way out of it, because 
they are talking about changing the definition of an overfished 
stock. Now it is a fairly high standard. I don't recall the 
exact percentage. It may be something like 75 percent of 
spawning stock biomass, but they are talking about dropping it 
to 50 percent. And by shifting in the goalposts, suddenly the 
stock would not be overfished any more, and accountability 
measures would not be----
    Mr. Huffman. Mr. Chairman, I am really grateful for the 
extra time. I am out of time, but I wonder if I might quickly 
ask unanimous consent to enter into the record a letter from 
Ranking Member Grijalva to the Secretary asking for a 
justification on this red snapper decision.
    Also, a letter from the Atlantic Council objecting to the 
summer flounder action.
    And then six letters from ecotourism business groups across 
the country requesting strong and successful conservation of 
our marine fisheries under the Magnuson Act.
    Mr. Lamborn. Without objection, so ordered.
    Mr. Huffman. Thank you.
    Mr. Lamborn. Mr. LaMalfa of California.
    Mr. LaMalfa. Thank you, Mr. Chairman. Being from the West 
Coast, we deal with a lot of issues inland, as well as on the 
coast. The lack of management of the salmon stocks, the 
consequences have been enforced as justifying reductions in 
water supply to California's farms and cities. The 
environmental groups, in assessing populations, like to 
conflate the healthy populations of salmon with those that are 
endangered.
    So, the low river flows, that up until last year were 
caused by historic droughts, blame agriculture. All these 
efforts by the environmental groups have contributed to loss of 
many, many Ag. jobs and billions of dollars in revenue to one 
of the most fertile places in the world, in California.
    So, what you get is that the environmental groups will say 
that populations of salmon are virtually non-existent, but the 
reality is that the Fish and Game Commission, by their own 
numbers that they released just a couple years ago--49 million 
salmon and steelhead, largely raised in taxpayer-funded 
hatcheries, and funded by fishing licenses, fees, et cetera, 
and water bills.
    What I am getting at here is that I think we can have 
better management that makes less of a strain on our water 
supply in California, arbitrarily, and the Pacific Fishery 
Management Council can play a big role in communicating the 
various cause of impacts to commercial salmon. We have seen 
time and again it is not just agriculture and cities and people 
use, but historic drought, as well as impact of predators, such 
as the striped bass in the Sacramento River, where NMFS, Marine 
Fisheries, has found in 2009--I hope we have more recent 
stats--that 90 percent of Sacramento River salmon died before 
they even left the river.
    Hopefully, we can learn more today about how Fishery 
Management Councils can help inform all of us, provide a 
reliable basis for decisions based on facts, not on rhetoric. 
So, that leads to my question for Mr. Kaelin.
    The fishery situation in California is a lot different than 
from the Atlantic, obviously, although many problems go beyond 
the West Coast. As pointed out earlier, you believe that 
fishery management processes that are adaptive would enable 
fish companies and others to learn from the unintended 
consequences of previous decisions.
    Would you be able to elaborate a little bit on how that 
adaptive process could achieve better results that are better 
for everybody around?
    Mr. Kaelin. Thank you for the question, Mr. LaMalfa. By the 
way, our company operates two squid plants in California under 
the name Suncoast Calamari, so we actually operate on both 
coasts.
    Adaptive management is a great concept. It is not one that 
is used very widely, frankly. I think the Councils are guilty 
of making the decision of not going back and taking a look at 
what the effects of those decisions have been. And that is 
something--I think I did mention this in my testimony--this is 
where we are, in terms of whether or not the reauthorization of 
the Magnuson Act should occur, frankly. And that is to take a 
look at the data that shows us whether there have been pluses 
and minuses, and then move ahead with some targeted reform.
    Also, the cumulative effects of management measures are 
very rarely considered in this process. I think it is an area 
we really have to do a lot of work in. Otherwise, we will not 
learn from the past. So, adaptive management is under-utilized.
    Mr. LaMalfa. Why do you think that is? Is there some kind 
of barrier, or taboo about that, or it just has not been----
    Mr. Kaelin. I think it is a lack of discipline, frankly, to 
have this be part of the Councils' regular review of what they 
have done. Maybe it is because there are so many issues in 
front of the Councils, and limited staff, limited days of the 
year, and we tend to continue to forge ahead in new areas, and 
never go back and take a look at what the effects have been.
    Mr. LaMalfa. Let me real quickly--would more input from 
local data or state, instead of just Federal--state and local 
data, would that be more useful? Do you think we can 
incorporate more of that, and get better overall results?
    Mr. Kaelin. Yes, I think so. We are utilizing that data to 
the extent that it exists now. It is a matter of sitting down 
and taking a look at what the impact has been, and having that 
be part of the process, regularly. It does not happen very 
often, so I guess it is a matter of will, and something that 
you could help direct the Councils to do, perhaps, in this 
bill.
    Mr. LaMalfa. We will find a way. Thank you for that. I will 
yield back.
    Mr. Kaelin. Thank you.
    Mr. Lamborn. Representative Beyer of Virginia.
    Mr. Beyer. Mr. Chairman, thank you very much, and thank all 
of you for being here.
    Mr. Witek, we have heard claims that recreational anglers 
are not getting increased access to fish as fish stocks 
rebuild. Only by osmosis have I learned a lot about red snapper 
on this Committee, for example. But we know that seasons are 
shrinking faster than allowable catches are growing, because 
ever more people are entering the fisheries, and a growing pie 
is being split into smaller slices.
    We hear a lot about flexibility, and does the Act need more 
flexibility. But it seems, from emergency rules to allow 
overfishing to continue in the short term, to alternative 
management measures like harvest control rules, Councils can 
manage fisheries basically any way they want to, as long as 
they do not exceed the science-based catch limits.
    Can you opine on flexibility? And give me the confidence 
that it is not a euphemism to allow overfishing.
    Mr. Witek. Well, it depends who uses it. Certainly, in some 
people's usage, it is nothing more than an asking for the 
flexibility to overfish, and the flexibility not to rebuild or 
to delay the rebuilding of overfished stocks.
    But the fact is there is already lots of flexibility that 
already exists in Magnuson-Stevens. One of the best examples is 
in summer flounder, black sea bass, and scup, where the Mid-
Atlantic Fisheries Council advises NMFS, and NMFS sets the 
recreational annual catch limit. But then the actual 
regulations that anglers have to comply with are set by the 
states, acting through the Atlantic States Marine Fisheries 
Commission. And they can differ in season length, size, and bag 
limit, so long as those regulations the states set meet the 
Federal annual catch limit. That is substantial flexibility.
    We heard Mr. Wiley talk earlier about slot limits. There is 
absolutely nothing in Magnuson that prevents the use of slot 
limits, again, as long as the ACL is met.
    Using biomass to determine--that is actually how it is 
determined whether a stock is overfished. It is by the biomass. 
Does it meet the target biomass? Has it dropped below the 
threshold biomass? All of those things exist in Magnuson today 
and could be used in Magnuson today.
    Mr. Beyer. Good. Thank you very much. The Budget Committee 
is meeting right now down the hall. And in the Administration's 
budget, NOAA Fisheries was proposed to be cut by 5 percent. And 
in the recently approved House Appropriations bill, the agency 
has recommended funding slightly above it.
    But I am impressed. Again, one of my experiences on this 
Committee is that we often hear about the data on fisheries 
being old. I went with Chairman Bishop to Homestead, Florida to 
have a public hearing there. And they kept saying, ``Well, 
these counts are 10 years old.''
    So, the question for all of our witnesses, maybe Mr. 
Martin. Do you support more Federal funding for fisheries 
science?
    Mr. Martin. Yes, I think it is very important that the 
science be validated as frequently as possible to be able to 
make sound management decisions.
    Mr. Beyer. Mr. Kaelin?
    Mr. Kaelin. Absolutely, Mr. Beyer. And I mentioned earlier, 
I think collaborative research with the industries, both 
recreational and commercial, is a very important piece of 
additional funding. I think we need to continue to emphasize 
the value of the cooperative research programs in the region 
that we can benefit from, too.
    Mr. Beyer. Mr. Wiley, an opportunity to weigh in?
    Mr. Wiley. Yes, sir. I do support additional funding, but 
with the caveat that we need to look closely at how priorities 
are set and where the funds are spent, because sometimes they 
do not sync up with where we feel like the greatest need is.
    Mr. Beyer. That is fair.
    Mr. Witek, you said in your testimony that you have seen a 
whole array of different fisheries' management styles from 
different government entities over your career. What can you 
tell us about whether annual catch limits, as an idea, as a 
philosophy, is the best way to effectively manage marine 
fisheries?
    Mr. Witek. On the East Coast, or at least in the Mid-
Atlantic and New England, it is the only thing that has ever 
worked.
    In New England, they refused to put annual catch limits in 
until compelled to in the 2006 reauthorization. We lost stock 
such as winter flounder. We lost Gulf of Maine cod. We lost 
Georges Bank cod, we lost a number of other species. Yes, there 
are still some there, but when you are talking about a fish 
that is at 3 percent or 5 percent of target level, as some of 
the cod are, that is a lost stock.
    Atlantic States Marine Fisheries Commission does not, in 
most species, use annual catch limits. They have not recovered 
a single stock in the last 20 years. And striped bass, which is 
their flagship and the one stock they recovered in 1995, was 
overfished in 6 years out of 10 before the last stock 
assessment, and is now slightly above the overfished threshold.
    Mr. Beyer. Thank you very much, Mr. Chairman.
    Mr. Lamborn. Representative Graves of Louisiana.
    Mr. Graves. Thank you, Mr. Chairman. I wanted to thank you 
all for being here today.
    Mr. Wiley, thank you. I was reading through the testimony 
of Mr. Witek, and he expressed his frustration, as he did in 
his oral testimony, about the lack of action by the Commission 
there to properly manage flounder up in the Northeast.
    I think I share their concerns with the Council's decisions 
and lack of action and decisions that do not represent the best 
interests of the public, in many cases. I would like to ask 
you--there was some sentiment that was expressed that states 
perhaps don't know how to properly manage fisheries. Could you 
tell me some experiences about where you have improperly 
managed, or your state has improperly managed, fisheries and 
allowed overfishing to occur?
    Mr. Wiley. I can think of no recent history where that has 
occurred.
    Mr. Graves. I am from the state of Louisiana. Can you think 
of an instance where that has occurred in Louisiana?
    Mr. Wiley. No, sir.
    Mr. Graves. What happened whenever you had ice issues with 
the snook? Can you tell me about that?
    Mr. Wiley. Well, yes. Believe it or not, we had a freeze a 
number of years ago in south Florida, and that is not normal.
    Mr. Graves. Is that 60 degrees? What is that?
    [Laughter.]
    Mr. Wiley. It is, yes. It was real, and it really hurt our 
snook fishery. We did initial emergency assessments and 
realized that we needed to take emergency action to protect 
that stock, so that we had sufficient stock to rebuild as 
quickly as possible. We immediately closed the season and kept 
it closed until our science said it was ready to open.
    Mr. Graves. Large mouth bass in Louisiana after Hurricane 
Andrew was another example of where the state of Louisiana, as 
a result of the impacts from that hurricane, shut down large 
mouth bass fishing in the Atchafalaya Basin area. So, a similar 
situation to what you are facing.
    There was a little bit of talk about the red snapper 
agreement that was reached among the Gulf states and the 
Department of Commerce for this year, and it was suggested that 
that is going to result in overfishing. If you see that your 
catch limits are exceeding what you believe is a sustainable 
harvest--and let's keep in mind that this is a trade of state 
days for Federal days--what would you do?
    Mr. Wiley. We would move to shorten our season, or take 
whatever measures were necessary to address it.
    And to that, it is really premature to speculate that we 
are going to go any degree over the quota at this point. We 
have weather systems coming through. The fishing is very 
dynamic, and so it is really too early to speculate what may 
happen.
    Plus, we are getting a new stock assessment this year, and 
our scientists are telling us that the stock has rebuilt and 
rebounded much more quickly than we ever thought. So, we are 
expecting to get some good news that should reset this debate.
    Mr. Graves. Mr. Wiley, just so you know, I sent a letter to 
our fisheries commission asking them to very precisely manage 
the harvest that is resulting from this swap of seasons, and 
asked them to shut the fisheries down early in the state of 
Louisiana if it appears that we are crossing over sustainable 
harvest thresholds there, as well.
    Mr. Witek, I have heard that you are a proponent of what 
some have called the catch share experience.
    Mr. Witek. Yes, I am.
    Mr. Graves. As I understand, the catch share experience is 
a situation where a commercial fisher takes someone out and 
that person pays to go out to catch fish. We can talk red 
snapper for fun.
    I am struggling with understanding how that is an 
appropriate allocation of resources. It seems, if there is 
additional demand for recreational fishing, and it is being 
handled by commercial fishers, it seems like that is more of a 
charter activity or recreational activity. It seems like that 
is almost poaching, which I assume you would oppose.
    Mr. Witek. Well, yes, it feels strange when you first start 
to think about it. But when you look at the process, what we 
have is----
    Mr. Graves. It is kind of like drinking, though? That 
feeling goes away after some time?
    Mr. Witek. I was a skeptic, too. I will be the first one to 
admit it. But when you realize there is 51 percent of the stock 
which is off-limits to recreational fishermen, period. That is 
the commercial allocation. They get 51 percent of the total 
ACL.
    Now you have a chance to make some of that commercial 
allocation available to recreational anglers who are willing to 
go out, not pay for the trip, but pay for fish that they caught 
on a per-pound basis, as much as they would like to buy. The 
price comes out to about the same as if you chartered.
    Mr. Graves. Why would you not just give it to the 
recreational folks, or give it to charter folks, instead? I 
mean that is a charter--a recreational--I have 8 seconds left, 
and I want to ask you one other question.
    You wrote a blog about a bill that we actually have not 
introduced and are still negotiating with various folks. Can 
you tell me where you got a copy of that draft bill?
    Mr. Witek. Actually, I would prefer not to answer that 
question.
    Mr. Graves. OK, thank you
    Mr. Lamborn. Representative Barragan of California.
    Ms. Barragan. Thank you, Mr. Chairman.
    As a Representative for California's 44th Congressional 
District, I am proud to say that my home state is leading the 
way to address climate change. We Californians know how vital 
our marine resources are to the many people, businesses, and 
communities that depend upon them, and we are well aware of the 
threat that climate change poses, such as ocean acidification 
and sea level rise.
    There has been abundant scientific evidence to show that 
climate change will impact these marine resources. 
Unfortunately, not all of my colleagues on the Committee agree. 
In fact, in 2015, the NOAA, or NOAA Fisheries Service, released 
a strategy to address the impacts of climate change on 
fisheries. It was described by some Republicans as a radical 
climate change strategy.
    Addressing climate change is anything but radical, as 
marine and coastal fisheries support over $20 billion in 
economic activity, and about 130,000 jobs in California each 
year.
    So, I have a question for each of the panelists today for 
your expert opinion. It is a yes-or-no answer. Do you think 
that climate change should be considered in fisheries 
management?
    Mr. Witek. Yes, I do.
    Ms. Barragan. Go ahead.
    Mr. Kaelin. Yes and no.
    Ms. Barragan. Yes and no?
    Mr. Kaelin. Yes. It depends on which form that 
consideration takes. I could go on, but----
    Ms. Barragan. OK.
    Mr. Wiley. I believe the Magnuson-Stevens Act is well 
positioned to integrate concerns about climate change, if that 
is determined to be the Federal policy.
    Ms. Barragan. OK. Have I heard from everybody? Mr. Martin?
    Mr. Martin. I would agree that, if it is done through MSA, 
where it is part of the evaluation of the fishery, then that 
would be an appropriate approach.
    Ms. Barragan. So, only through the bill you believe that 
you should look at climate change? Is that right? Is that a 
yes, or is that what I am hearing?
    Mr. Wiley. That is not what I said. I believe that would be 
the most appropriate avenue.
    Ms. Barragan. OK.
    Mr. Kaelin. If I could clarify my remarks for a moment, 
ma'am.
    Ms. Barragan. OK.
    Mr. Kaelin. There are winners and losers, and it is not all 
bad. We could go into some detail. I hope I could follow up 
with you and your staff about that.
    Ms. Barragan. OK, sounds good. I want to move on to 
something else.
    Earlier this year, the Committee held a hearing on the 
topic of marine monuments and national marine sanctuaries. 
During that hearing, Dr. John Bruno, a marine scientist and 
professor at the University of North Carolina, described the 
importance of marine-protected areas on fisheries. He explained 
that marine services increase fisheries' productivity and can 
benefit the fishing industry, contrary to many claims. My 
colleagues also submitted for the record a large body of 
scientific evidence supporting this.
    In California, we have several important national marine 
sanctuaries, including the Channel Islands National Marine 
Sanctuary off the Southern California coast.
    Mr. Witek, do you think it is important to provide refuge 
for fish species through protected spaces, or through catch 
limits, to ensure that healthy fisheries have time and space to 
reproduce and sustain populations?
    Mr. Witek. I believe in time and area closures to protect 
spawning stock, such as the South Atlantic Fishery Management 
Council recently put in place in the Atlantic, from South 
Carolina down to Florida.
    I believe in gear-restricted areas to protect important 
habitat, bottom habitat. For example, you don't put bottom-
tending gear in areas where there are fragile corals.
    I believe that there are situations where an area should be 
closed because there is a badly overfished stock--say a 
deepwater grouper--and there is no way to successfully release 
the fish, if caught.
    I do not believe in broad marine-protected areas that close 
areas of ocean to all access, to all fishing, including for 
highly migratory species that travel high in the water column 
and are totally unaffected by the closure and actually will 
transit it in a matter of hours. Because there I don't think it 
provides any biological benefit.
    Ms. Barragan. OK. So, would it be accurate to say that--do 
you believe that there is more to ocean conservation than 
fisheries management under Magnuson?
    Mr. Witek. Than pure fisheries management? Yes, I do.
    Ms. Barragan. Thank you. I yield back.
    Mr. Lamborn. Thank you. And last, but not least, 
Representative Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman. I appreciate the 
indulgence in allowing me to participate in this.
    I would like to bring up one of the things that I hope we 
can talk further about as we talk about the money aspect of 
this. And make no mistake about it, when it comes to the red 
snapper, a lot of it is about money.
    When we get the increased allocation, there will be an 
increased allocation that goes to the commercial sector, and 
there will be an increased allocation that we expect that, 
obviously, would go to the recreational sector. The thing I 
have never understood is why the commercial sector does not 
have to bid on it.
    If it was oil, if it was gas, if it was timber, they would 
have to bid on the increased allocation. But instead, the way 
it has been handled, they get it for free. And then, if I want 
to take my kid fishing--I was a little surprised that you 
supported this catch share experience--but I go down to the 
local fish market, and I pay about $50 a fish to the local fish 
market, and then I go out back and, through a handshake deal 
between him and a charter boat captain, you do a bare boat 
charter. That is the way the catch share experience works.
    I guess I am not aware of any other scenario under which a 
commercial entity receives something for free that was a public 
asset, prior to the allocation of it, and is then allowed to 
commercially profit from it.
    I am not saying we should go after what is already 
allocated, although I think there are some questions about 
whether or not it was done legally, to create as much private 
wealth as has been created with a public asset. But any 
increased allocation, that should be auctioned off from the 
commercial sector. I mean it is clearly going to generate 
profit for somebody. And then we can put that into habitat 
restoration, additional science, and other things.
    As we go forward, I want you to know I do hope that we 
reauthorize the Magnuson Act. And one of the things I would ask 
for support in is that we get strict conflict of interest 
language in it on who can serve on the Councils. Because we 
have a very serious problem in the Southeastern Council where 
too much of the input and too many of the decisions are being 
made by people who have the potential to profit from the 
decisions.
    So, there has to be--I am for the flexibility, but I am 
also for the integrity in the measures.
    I want to ask you, Mr. Wiley. I can't fish for amberjack in 
the Gulf of Mexico this year. You are one of the few states 
that--in fact, you are the only state, I suppose, that is on 
two oceans, the Atlantic and the Gulf of Mexico. But I can fish 
for amberjack in the Atlantic and I can keep them, but I can't 
fish for them in the Gulf of Mexico. Can you tell me if that 
was a science-based decision?
    Mr. Wiley. Well, both those decisions are handled 
independently by two different Councils. And there was science 
supporting each of those decisions as they worked through the 
Council. So, whether you feel like it was the right call or 
not, it is tough being in the state, having to work on two 
different Councils.
    Mr. Scott. Absolutely. But I would tell you that Susan 
Shipman, who is a marine biologist in Georgia, I trusted Susan 
Shipman. I trust Spud, who is our current marine biologist in 
Georgia. I am a little taken back at the accusations that state 
marine biologists are not going to operate in the best 
interests of the biology. People who get those degrees do it 
because they love the ocean.
    And sea bass has been talked about a lot. The size limit in 
the Gulf of Mexico is very different, it is 30 percent larger 
in the Atlantic than it is in the Gulf. I assume that is 
science-based.
    The gentleman from Lund's, Mr. Kaelin? Would the catch 
limits and other things that are applied to the recreational 
sector work for the commercial sector?
    Mr. Kaelin. I think maybe it is the other way around, the 
way I would look at it. I think there is a lot of 
accountability on our side of the ledger.
    I would like to see stricter reporting.
    Mr. Scott. So, your answer is no? What works for the 
recreational sector won't work for you?
    Mr. Kaelin. Well, I think you would have to look at it on a 
case-by-case basis, honestly. But I think the Council's 
struggle with the lack of accountability on the recreational 
side, in terms of estimating mortality, more than with the 
commercial side----
    Mr. Scott. Well, if what works for the recreational sector 
won't work for you, why do you think what works for you works 
for the recreational sector?
    Mr. Kaelin. If we had the lack of accountability on the 
commercial sector that exists in the recreational sector, we 
would not have any fish left in some cases. We would lose----
    Mr. Scott. That is because you all fish the spawning 
grounds and other things, though.
    Mr. Kaelin. Yes, and we close areas for spawning and there 
are some measures that clearly benefit both sectors.
    Mr. Scott. Well, I do want to agree with the time and the 
area closures and the gear restrictions that Mr. Witek talked 
about, even though I think that, certainly, the bare boat 
charters are a scam that needs to go away.
    Mr. Kaelin. Well, those measures are in place in our 
region, and they are important----
    Mr. Lamborn. OK, I am going to call the hearing to a close, 
because we are about to have votes, and we need to start 
heading over to the House.
    That concludes our questions. I want to thank each of our 
witnesses for their testimony.
    Members of the Subcommittee may have additional questions 
for witnesses, and we ask that you would respond to these in 
writing. Under Committee Rule 3(o), members of the Committee 
have to submit these questions to the Clerk within 3 business 
days, and the hearing record will be kept open 10 days for 
these responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 4:11 p.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Grijalva Submissions

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Pew Charitable Trusts dated July 
            17, 2017.

    --Letter addressed to the Members of the House Natural 
            Resources Committee from the Alaska Marine 
            Conservation Council dated July 26, 2017.

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva signed by chefs, restauranteurs, and 
            seafood suppliers dated July 12, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Natural Resource Defense Council 
            dated July 20, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Seafood Harvesters of America 
            dated July 17, 2017.

Rep. Huffman Submissions

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva signed by representatives of local Texas 
            businesses dated July 17, 2017.

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva signed by representatives of local Florida 
            businesses dated July 17, 2017.

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva signed by representatives of local New 
            Jersey businesses dated July 17, 2017.

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva signed by representatives of local 
            Connecticut businesses dated July 17, 2017.

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva signed by representatives of local 
            Washington State businesses dated July 17, 2017.

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva signed by representatives of local 
            California businesses dated July 17, 2017.

    --Letter addressed to Secretary Ross and Assistant 
            Administrator for Fisheries, Chris Oliver from 
            Ranking Member Grijalva dated June 23, 2017.

    --Press release from the Atlantic States Marine Fisheries 
            Commission dated July 14, 2017.

                                 [all]
                                 
                                 
                                 
                                 
                                 
</pre></body></html>
